                                                                                            Semiannual Report to Congress




   A M essage from the Inspector General
     The Social Security Administration (SSA) operates with the mission
     to ensure the right person receives the right benefit payment at the
     right time. The SSA Office of the Inspector General (OIG) exists
     to protect and improve the Agency, strengthening SSA so that it can
     follow through on its mission. I am proud of this office’s unwavering
     dedication to inspiring confidence in the integrity and security of SSA’s
     programs, as we strive to guard them against fraud, waste, and abuse.

     I am pleased, then, to present this Semiannual Report to Congress,
     covering the period April 1, 2011 through September 30, 2011.
     This report includes OIG’s significant audit, investigative, and legal
     accomplishments during the second half of fiscal year 2011.

     During this reporting period, we:

     • Maintained a focus on persistent management challenges, such as reducing improper payments and
     increasing overpayment recoveries, as well as high-priority investigations, such as those targeting disability
     applicants who misuse a Social Security number to obtain Social Security benefits fraudulently.

     • Conducted oversight and reviewed SSA’s plan to reduce improper payments under Executive Order
     13520 and the Improper Payments Elimination and Recovery Act of 2010.

     • Continued the growth of the Cooperative Disability Investigations program by opening new investigative
     units in Salt Lake City, Utah, Oklahoma City, Oklahoma, and Lexington, Kentucky.

     • Collected civil monetary penalties from several organizations to settle alleged violations of Section
     1140 of the Social Security Act, which prohibits the use of SSA words and symbols in advertisements and
     communications in a manner that conveys that such item is approved, endorsed, or authorized by SSA,
     or that such person has some connection with, or authorization from SSA.

     • Launched a redesigned OIG website at http://oig.ssa.gov, which we believe will improve the way we
     share our work and promote the OIG mission.

     In everything we do, OIG aims to improve SSA and its operations so that the Agency maintains its
     excellent record of service. I assure you that my office will continue to work with SSA and the Congress
     to help the Agency fulfill its duty to the millions of Americans who turn to it for help.


     S
     Patrick P. O’Carroll, Jr.
     Inspector General




April 1, 2011 - September 30, 2011                                                                                     1
                                                                                                             Semiannual Report to Congress




                                        Social Security A dministration
                          Office of the Inspector General



                                                         Contents
                          A M essage from the Inspector General.......................1

                          Executive Summary............................................................4

                          Introduction to Our Organization. .............................6

                          I mpact....................................................................................8

                          Value...................................................................................21

                          People. ................................................................................35

                          R eporting R equirements and A ppendices...................38

                          Glossary of Acronyms.....................................................75




April 1, 2011 - September 30, 2011                                                                                                      3
Semiannual Report to Congress




EXECUTIVE SUMMARY
This report presents the significant accomplishments of SSA’s OIG from April 1, 2011 through September 30, 2011.
The report is organized according to three major goals—impact, value, and people—set forth in the OIG Strategic Plan:
Fiscal Years (FY) 2011-2015, first edition.


Impact
We work to have a positive impact on SSA programs and operations by enhancing their integrity, efficiency, and effectiveness.
During this reporting period, we received more than 54,000 allegations from SSA employees, the Congress, the public, law
enforcement agencies, and other sources. Our agents closed more than 3,800 criminal investigations, resulting in over: 630
indictments and informations, 320 arrests, 670 criminal convictions (including pretrial diversions), and 50 civil judgments/
civil monetary penalty (CMP) assessments. Our OIG agents also continued to work with law enforcement agencies to
arrest subjects identified through the Fugitive Enforcement Program. Highlighted investigations in this section relate to
Social Security number (SSN) misuse, employee misconduct, and threats against SSA employees.
Our auditors also had a significant impact during this reporting period, issuing 50 reports and making recommendations on
a wide variety of challenges facing the Agency. Our audit work over the past six months included reviews of SSA’s initiatives
connected to the American Recovery and Reinvestment Act of 2009, SSA’s efforts to reduce the hearings backlog and determining
whether SSA has appropriate oversight for the Work Incentive Planning and Assistance (WIPA) Project.


Value
Our organization strives to provide valuable products and services in a timely manner to the Congress, SSA, and
other key decision-makers, while sustaining a positive return for each tax dollar invested in OIG activities. During this
reporting period, our auditors identified more than $1.4 billion in questioned costs and more than $1 billion in Federal
funds that could be put to better use. Highlighted audits examine the accuracy of SSA’s determinations of Supplemental
Security Income (SSI) recipients’ resources related to real property ownership and whether SSA had adequate controls
to ensure it resolved death information on the Numident for suspended beneficiaries
In the second half of FY 2011, we are reporting over $223 million in investigative accomplishments, including over
$45 million in SSA recoveries, restitution, fines, settlements, and judgments, and over $177 million in projected savings
from investigations resulting in the suspension or termination of benefits. In addition, we participated in multi-agency
investigations that resulted in over $33 million in savings, restitution, and recoveries for other agencies.
Our Cooperative Disability Investigations (CDI) Program continues to be one of our most successful initiatives,
contributing to the integrity of SSA’s disability programs. During this semiannual period, the efforts of our CDI Units
resulted in $152.8 million in projected SSA program savings and $100.1 million in savings to other programs.
During this reporting period, our attorneys initiated 240 CMP cases (Section 1129 cases) that involved false statements,
representations, or omissions made in connection with obtaining or retaining benefits or payments under Titles II and XVI
of the Social Security Act (the Act). Included in our investigative accomplishments above is more than $2.1 million in penalties
and assessments that our attorneys imposed through our CMP program.




4                                                                                           April 1, 2011 - September 30, 2011
                                                                                         Semiannual Report to Congress




People
The collective efforts of our employees continue to be the driving force behind this organization’s success in achieving
its mission. We provide an encouraging and rewarding work experience with the goal of retaining these exceptional
individuals. OIG leadership fosters an environment where employees can realize their potential through training and
developmental programs. OIG components convene training sessions to inform their employees about new procedures
and share best practices.
In addition, the OIG Organizational Health Committee annually assesses employee satisfaction levels and addresses
employee concerns. SSA and the Office of Personnel Management (OPM) use a baseline of 65 percent of employees
responding positively (e.g., strongly agree or agree) to measure the statistical strength of an organization. Using that
definition of statistical strength, 12 of the 13 questions on the OIG survey had scores above 65 percent, demonstrating
that the health of the OIG organization is strong. Question 12 of this survey asks, “Considering everything, how
satisfied are you with your job?” Eighty-two percent of our employees indicated that they are either satisfied or very
satisfied with their job, which is significantly higher than the 65 percent OPM baseline.




April 1, 2011 - September 30, 2011                                                                                    5
Semiannual Report to Congress




INTRODUCTION TO OUR ORGANIZATION
SSA OIG comprises the Immediate Office of the Inspector General and five major components: the Offices of Audit,
Counsel, External Relations, Investigations, and Technology and Resource Management.


Immediate Office of the Inspector General
The Immediate Office of the Inspector General (IO) provides the Inspector General with staff assistance on the
full range of his responsibilities. IO staff provides liaison with all agencies sharing common interests with the OIG
and ensures coordination with congressional committees, SSA, the Social Security Advisory Board, and the Council
of Inspectors General on Integrity and Efficiency (CIGIE). IO also includes the Office of Quality Assurance and
Professional Responsibility (OQAPR), which performs two critical functions. First, it conducts detailed reviews of each
of the OIG’s component offices to ensure compliance with Federal laws and regulations, Agency policies, and relevant
professional standards. Second, OQAPR conducts investigations into allegations of misconduct by OIG employees.


Office of Audit
The Office of Audit (OA) conducts and supervises financial and performance audits of SSA programs and operations,
and makes recommendations to ensure that program goals are achieved effectively and efficiently. Financial audits
determine whether SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and operations. OA
also conducts short-term management and program evaluations, and other projects on issues of concern to SSA, the
Congress, and the general public.


Office of the Counsel to the Inspector General
The Office of the Counsel to the Inspector General (OCIG) provides independent legal advice and counsel to the
Inspector General on a wide range of issues, including statutes, regulations, legislation, and policy directives. OCIG
also administers the CMP program, and advises the Inspector General on investigative procedures and techniques, as
well as on the legal implications of audit and investigative affairs.


Office of External Relations
The Office of External Relations (OER) develops the OIG’s media and public information policies, directs OIG’s
external and public affairs programs, and handles congressional, media, and public requests for information. OER is
responsible for preparing OIG publications and presentations to internal and external organizations and coordinating
the OIG’s presence at SSA and other Federal events. In addition, OER prepares the OIG Semiannual Report to
Congress and congressional testimony, and coordinates with SSA’s Offices of Communications and Legislation and
Congressional Affairs.




6                                                                                    April 1, 2011 - September 30, 2011
                                                                                         Semiannual Report to Congress




Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants, beneficiaries, contractors,
and third parties, as well as by SSA employees while performing their official duties. This office serves as the OIG’s
liaison to the Department of Justice (DOJ) on all matters relating to the investigation of SSA programs and personnel.
OI also conducts joint investigations with other Federal, State, and local law enforcement agencies, and it shares
responsibility with the Department of Homeland Security’s (DHS) Federal Protective Service (FPS) for investigating
threats or occurrences of physical assault or endangerment directed against SSA employees, contractors, and facilities.


Office of Technology and Resource Management
The Office of Technology and Resource Management (OTRM) provides administrative support to the Inspector
General and OIG components. OTRM formulates and executes the OIG budget, and is responsible for strategic
planning, performance reporting, and facility and property management. OTRM manages a national human resources
program, and develops and maintains the OIG’s administrative policies and procedures. OTRM also maintains hardware,
software, and telecommunications networks to support the OIG’s mission. Finally, OTRM manages the OIG’s Allegation
Management and Fugitive Enforcement Division and Electronic Crimes Division.




April 1, 2011 - September 30, 2011                                                                                   7
Semiannual Report to Congress




IMPACT
The first goal of the OIG Strategic Plan is Impact. We are committed to enhancing SSA’s effectiveness and
efficiency through our investigative, audit, and legal activities. We strive to have maximum impact on SSA’s programs
and operations to ensure their continued integrity and reliability. During this reporting period, we completed numerous
audits, investigations, and legal initiatives covering major SSA program and management areas, which had a significant
impact on the detection and prevention of fraud, waste, and abuse. The summaries presented below are indicative of
our work over the past six months.

Audit Impact Initiatives
OA contributes to this strategic goal by conducting and supervising comprehensive financial and performance audits,
and by making recommendations to maximize the effective operations of Social Security programs. These audits, along
with short-term management and program evaluations, focus on those SSA programs and activities most vulnerable
to waste, fraud, and abuse.

American Recovery and Reinvestment Act of 2009
On February 17, 2009, the President signed into law the Recovery Act, P.L. 111-5. The Administration is committed to
investing Recovery Act funds with a high level of transparency and accountability so Americans know where their tax
dollars are going and how they are being spent. During this semiannual period, we issued one report related to SSA’s
use of Recovery Act funds.

The Program of Requirements for the Social Security Administration’s New Data Center
We initiated this review to determine whether the General Services Administration (GSA) and SSA followed best
practices in developing the overall Program of Requirements (POR) for SSA’s new Data Center. The POR provides
the minimum design requirements that will assist qualified design-build contractors in generating and presenting
conceptual designs, budgets, and schedules for complete turnkey construction of the new Data Center.

Our contractor found that, in general, the GSA/SSA team had developed a comprehensive list of requirements. The
team was thorough in creating a document that effectively communicated the needs of the new Data Center and did
an impressive job of conveying the expected performance requirements. However, our contractor did identify two
notable design concerns.

       1. The structural design limits for wind speed force were lower than expected for best practice
       standards.

       2. The information related to the redundancy requirements for the air-handling units is not clearly
       defined to ensure a consistent understanding by bid contractors.

Our contractor recommended that SSA, working with GSA, should: (1) consider upgrading the specification for wind
speed design loads to exceed the minimum code requirements, perhaps raising the designation to 120 miles per hour
(MPH) from the current requirement of 90 MPH; and (2) provide further details about the methods for calculating
and validating the minimum requirement for air handlers in the data center spaces. SSA agreed with Recommendation
2 and revised the POR. SSA did not agree with Recommendation 1, stating that current specification for wind speed
of 90 MPH meets International Building Code Standards, and it is unnecessary to exceed these standards any further.



8                                                                                    April 1, 2011 - September 30, 2011
                                                                                       Semiannual Report to Congress




Senior Attorney Adjudicator Program
Our objective was to assess the role of the Senior Attorney Adjudicator (SAA) program in reducing the hearings
backlog and evaluate the factors that affected SAA performance.
Under the program, the Agency permits SAAs to issue fully favorable on-the-record (OTR) decisions, thereby conserving
administrative law judge (ALJ) resources for the more complex cases that require a hearing. The SSA program is one
of a number of Commissioner-led initiatives to reduce the hearings backlog, using an approach similar to that of the
SAA experiment of 1995 through 2000.
In FY 2010, 689 SAAs adjudicated approximately 54,000 decisions. This represents a 46-percent increase in the number
of adjudicating SAAs, and a 120-percent increase in the number of SAA decisions, when compared to FY 2008. SAA
decisions represented about 7 percent of all Office of Disability Adjudication and Review (ODAR) dispositions in FY
2010. The majority of the regional and hearing office managers we interviewed had a positive impression of the SAA
program. The benefits cited by these managers included: (1) higher hearing office productivity; (2) greater retention
of attorneys; and (3) increased advancement opportunities for productive SAAs. Managers also cited areas that could
be improved, including (1) clearly defined performance measures and related awards; (2) a consistent method for
promotions; (3) more developed attorney adjudicator worksheets; and (4) maintaining a sufficient number of decision
writers.
We recommended that SSA: (1) establish uniform performance measures for SAAs to ensure workloads are processed
consistent with clearly defined standards; (2) link SAA awards to uniform performance measures and ensure hearing
office managers understand the administration of the SAA awards process; (3) provide managers and staff with clear
criteria for all SAA promotions; and (4) provide SAAs with additional guidance and tools, such as a modified Attorney
Adjudicator Worksheet, to ensure SAAs highlight pertinent case details when a case cannot be decided as an OTR.
SSA agreed with all of our recommendations.

Representative Video Project
Our objective was to assess SSA’s effectiveness in implementing the Representative Video Project (RVP).
In September 2008, under the Video Hearing backlog initiative, SSA expanded the use of video teleconferencing (VTC)
through the RVP, allowing representatives and claimants to attend VTC hearings at claimant representatives’ offices
while the ALJ is at another location.
During the first 18 months of the RVP, the Chicago and Kansas City Regions used the RVP sites extensively; both
Regions had experienced significant hearing backlogs. Four RVP sites in the Chicago and Kansas City Regions
represented 71 percent of all activity among the 23 RVP sites. About 48 percent of the RVP sites had fewer than
10 hearings. While some of the low usage related to recent participation in the program, in other cases, the RVP
participants experienced problems related to faulty equipment or scheduling issues. In terms of regional workloads,
we found SSA used the RVP as part of service area realignments, allowing ALJs from one region to alleviate backlogs
in another region.
Before SSA implemented RVP, we found the Agency had limited communication with the public about the project.
In addition, better communication by SSA with its employees and the RVP participants would have allowed all parties
to understand more fully how the program was to operate. Moreover, the Agency did not (1) conduct a test or pilot
of RVP before its nationwide implementation or (2) monitor relevant the RPV trends, such as low use by participants.
Finally, during the audit, some of the parties we interviewed raised potential legal issues related to RVP. We made
five recommendations to SSA to enhance communication related to the RVP, and to monitor the RVP workloads and
outcomes. The Agency agreed with four recommendations. In response to our fifth recommendation, the Agency
stated it did not believe there were any unresolved RVP legal issues at this time.

April 1, 2011 - September 30, 2011                                                                                 9
Semiannual Report to Congress




Work Incentive Planning and Assistance Project
Our objective was to determine whether SSA had appropriate oversight and monitoring controls for the WIPA Project.
In addition, we determined whether (1) expenditures for the WIPA were allowable, supported, and in accordance with
the grant’s terms and (2) grantees accomplished the grant objectives.
The Ticket to Work and Work Incentives Improvement Act of 1999 required SSA to award cooperative agreements (grants)
with community organizations to disseminate accurate information to disabled beneficiaries about work incentives
programs. From 2006 through 2010, SSA awarded about $93 million in grant funds to 103 WIPA grantees.
SSA was unable to determine how many beneficiaries were enrolled in WIPA because the data grantees reported on the
beneficiaries were inconsistent and, thus, unreliable. SSA then implemented a centralized database to track and monitor
beneficiary information. During the 6-month period beginning in October 2009, 12,574 beneficiaries enrolled in the
WIPA; however, we found that only 95 percent were actually eligible. The remaining five percent of enrollees were
not eligible because they had missing or invalid Social Security numbers, were not receiving benefits, or were deceased.
Also, it was unclear whether grantees were meeting WIPA objectives, because SSA had not established clearly defined,
measurable performance goals. The Agency only required that each grantee provide direct WIPA services to beneficiaries
who lived in designated areas grantees served, but did not designate a goal for the number of beneficiaries to be enrolled
by each grantee. This issue contributed to a significant variation in the number of beneficiaries each grantee enrolled,
ranging from 24 to 1,194 beneficiaries. As a result, the per-enrollee cost varied significantly among the 103 grantees,
ranging from $138 to $5,230.
We made five recommendations to the Agency, including conducting periodic validity and integrity checks on the
beneficiary data to ensure the data are reliable; and establishing performance goals for WIPA grantees. SSA agreed
with all our recommendations.




10                                                                                      April 1, 2011 - September 30, 2011
                                                                                       Semiannual Report to Congress




Investigative Impact Initiatives
OI examines and investigates allegations of fraud, waste, abuse, and mismanagement in SSA programs and operations.
These allegations may involve issues such as benefit fraud, SSN misuse, violations by SSA employees, or fraud related
to grants and contracts. Our investigations often result in criminal or civil prosecutions or the imposition of CMPs
against offenders. These investigative efforts improve SSA program integrity by recovering funds and deterring those
contemplating fraud against SSA in the future. Our work in the areas of program fraud, enumeration fraud, SSN
misuse, and employee misconduct ensures the reliability of SSA programs and their future operations.




                                             Investigative Results

                                             10/1/10 - 3/31/11    4/1/11 - 9/30/11          FY 2011

            Allegations Received                  49,323               54,244               103,567
            Cases Opened                           3,482                3,714                7,196
            Cases Closed                           3,358                3,809                7,167
            Arrests                                 262                  327                  589
            Indictments/Informations                488                  637                 1,125
            Criminal Convictions                    698                  676                 1,374
            Civil/CMPs                              36                   66                   102
            TOTAL                                 57,647               63,473               121,120




April 1, 2011 - September 30, 2011                                                                                11
Semiannual Report to Congress




                                       Cases Opened by Program Category
                                        April 1, 2011 - Setember 30, 2011


                                                     Other
                         Employee-Related            0.32%                Social Security Number
                             2.34%                                                 Misuse
                                                                                   3.56%

           Title XVI-Disability
                  40.01%

                                                                                               Title II-Disability
                                                                                                    39.31%




                                    Title XVI-Aged                     Title II-Retirement
                                         4.23%                                10.23%




                                       Cases Closed by Program Category
                                       April 1, 2011 - September 30, 2011



                                                        Other      Social Security Number
                                  Employee-Related                          Misuse
                                      1.65%             0.58%
                                                                            4.73%


           Title XVI-Disability
                  39.14%


                                                                                             Title II-Disability
                                                                                                  38.35%




                                    Title XVI-Aged
                                         4.73%               Title II-Retirement
                                                                    10.82%




12                                                                                      April 1, 2011 - September 30, 2011
                                                                                                          Semiannual Report to Congress




                                            Allegations Received by Source
                                                    10/1/10 - 3/31/11          4/1/11 - 9/30/11                 FY 2011

           SSA Employees                                   16,855                     20,185                        37,040
           Private Citizens                                15,825                     15,817                        31,642
           Anonymous                                       13,246                     14,210                        27,456
           Law Enforcement1                                 1,741                      2,374                        4,115
           Beneficiaries                                    1,117                      1,105                        2,222
           Public Agencies                                   526                        537                         1,063
           Other                                              13                         16                          29
           TOTAL                                           49,323                    54,244                    103,567




                                         Allegations Received by Category2
                                                    10/1/10 - 3/31/11          4/1/11 - 9/30/11                FY 2011

           Disability Insurance                            21,472                     22,968                    44,440
           SSI Disability                                  12,571                     15,003                    27,574
           SSN Misuse                                       6,898                     7,643                     14,541
           Old-Age and Survivors Insurance                  3,803                     4,201                         8,004
           Other                                            2,815                     2,529                         5,344
           Employee-Related                                 1,182                     1,076                         2,258
           SSI Aged                                          582                        824                         1,406
           TOTAL                                           49,323                    54,244                    103,567

                    1 Effective FY 2011, OIG has excluded allegations related to the Fugitive Enforcement Program
                    from our allegation count.
                    2 See footnote 1.




April 1, 2011 - September 30, 2011                                                                                                  13
Semiannual Report to Congress




SSA Fraud: Married Couple Fake Husband’s                   SSA Fraud: Woman Conceals Mother’s Death
Death to Receive Survivor’s Benefits                       and Misuses her Mother’s Retirement Benefits
Acting on information provided by the Federal Bureau       In response to information provided by the U.S.
of Investigation and the U.S Attorney’s Office, our        Attorney’s Office, Eastern District of Virginia, our
Sioux Falls, South Dakota office investigated a Ft.        Norfolk office investigated a Windsor, Virginia
Lauderdale, Florida woman. The woman obtained              woman. The woman concealed her mother’s death, and
survivor’s benefits for herself and children, claiming     continued to receive her mother’s retirement benefits.
that her husband and her children’s father died on         In May 2011, after the woman pled guilty to theft of
October 28, 2003 in Malaysia. The woman and her            Government property, a U.S. District Court judge
husband conspired to fake her husband’s death,             sentenced the woman to 24 months’ incarceration and
enabling her to receive SSA benefits from August 2004      3 years’ supervised release, and ordered her to pay
through December 2009. In December of 2008, her            restitution of $74,108 to SSA and $149,348 to OPM.
husband informed U.S. Embassy officials in Jakarta,
Indonesia, that he had faked his death. The husband
had been hiding in Thailand and wanted to renew his        SSA Fraud: Employer and Employee Conspire to
U.S. Passport. In July 2011, after the woman pled guilty   Conceal Employee’s Work Activity from SSA
to conspiracy to commit mail fraud, a U.S. District        In response to a referral provided by the Scottsbluff,
Court judge sentenced her to 24 months’ incarceration      Nebraska SSA office, our Omaha office investigated a
and 3 years’ supervised release, and ordered her to pay    Bayard, Nebraska employer and his Mitchell, Nebraska
restitution of $56,703 to SSA. The judge also ordered      employee. While the man received retirement benefits,
her to pay restitution of $1,500,000 and $495,000 to       the employer assisted the man in concealing his
two life insurance companies.                              employment as a car salesman. From 2006 through
                                                           2008, the men concealed the work income and
                                                           employment from SSA by paying the man in his wife’s
SSA Fraud: Oklahoma Woman Conceals Marriage                name. In May 2011, after a jury convicted the employer
to Receive SSA Benefits                                    of aiding and abetting, a U.S. District Court judge,
Acting on information provided by the Moore,               District of Nebraska, sentenced the employer to one-
Oklahoma SSA office, our Oklahoma City office              year of probation, a $30,000 fine, and ordered him to
investigated a woman who began receiving Title II          pay joint restitution of $44,614 to SSA. The employee
survivor’s benefits as a mother with child in care in      was previously sentenced to five years’ probation in
1996. However, in 1998, she married and concealed          February 2011, at which time, he was ordered to pay
this marriage from SSA. In March 2008, the SSA             restitution in the amount of $44,614.
benefits ceased. She then re-applied and received Title
II widow’s benefits. From November 1998 through
April 2011, she received $107,591 in benefits for which
she was not eligible. In June 2011, after she entered a
Consent Judgment with the U.S. Attorney’s Office, the
woman agreed to repay $107,591 to SSA.




14                                                                              April 1, 2011 - September 30, 2011
                                                                                  Semiannual Report to Congress




SSN Misuse: Ohio Woman Pleads Guilty to Theft             Employee Fraud: Former SSA                Employee
of Government Funds and Identity Theft                    Convicted of Attempted Extortion
An Ohio woman fraudulently received disability            Based on a referral from an SSA District Manager,
benefits by using two identities and having two SSNs.     our San Francisco office investigated an SSA claims
She provided false information that made her eligible     representative for attempting to arrange a kickback of
to receive SSI disability benefits for 15 years.          benefits from an SSI claimant who suffered a stroke.
                                                          In May 2009, the employee met with the claimant’s
In May 2011, after the woman pled guilty to theft of
                                                          representative, at which time, the SSA employee
government funds and identity theft, a U.S. District
                                                          stated he would arrange for the claimant to receive
Court judge, Northern District of Ohio, sentenced
                                                          approximately $4,000 in past due benefits if the
her to 30 months’ incarceration, 2 years’ post-release
                                                          claimant would refund him $2,000. The claimant did
control and a $200 special assessment penalty, and
                                                          not agree and reported the incident to a member of
ordered her to pay restitution of $96,505 to SSA.
                                                          Congress.
                                                          In June 2011, following the employee’s plea of guilty
SSN Misuse: Facial Recognition Program Exposes            to attempted extortion by an employee of the United
Woman’s Use of Multiple Identities                        States, a U.S. District Court judge, sentenced the
Acting upon a referral from the New York Department       employee to three months in Federal custody, followed
of Motor Vehicles Facial Recognition Project, our New     by one year of supervised release. SSA terminated the
York office determined that a woman fraudulently          employee’s employment in July 2010.
received SSI disability benefits. The woman, who had
two New York State driver’s licenses, received benefits
from 1997 through 2006.
In June 2011, following the woman’s plea of guilty to
theft of Government funds, a U.S. District Court judge,
Western District of New York, sentenced her to one
year of probation and ordered her to pay restitution
of $62,357 to SSA.


Employee Fraud: SSA Employee Suspended for
Accessing Friend, Relatives’ Records
Our Iselin New Jersey office investigated an SSA
employee for improperly accessing the SSA records
of several former classmates, their parents, business
acquaintances, and an individual with whom he allegedly
has a personal relationship. He accessed these records
multiple times without a business reason to do so.
Based on our investigation, SSA suspended the
employee for 15 days.




April 1, 2011 - September 30, 2011                                                                           15
Semiannual Report to Congress




Threats and Assaults Against SSA Employees
Employee safety is of paramount concern to SSA and OIG. The OIG shares responsibility for investigating reports of
threats of force or use of force against Agency employees with the DHS FPS, which has jurisdiction over physical
property owned or leased by the Federal Government, and with local law enforcement if the activity occurs off federally
owned or leased property.
During the reporting period, we received 492 allegations nationwide related to employee safety issues, of which 144
involved assault or harassment, and 348 were associated with threats against SSA employees or buildings. We opened
31 cases and closed 57 cases nationwide related to employee safety.
The following case summaries highlight significant investigations we conducted during this reporting period in which
SSA employees were threatened by members of the public.


Dallas Man Sends Threatening Mail to U.S.                       she was going to return to the office with a weapon and
Government Agencies                                             “blow her away.” In July 2011, after the woman pled
Our Dallas office initiated an investigation based on           guilty to attempting to interfere with the administration
information provided by the United States Postal                of the Act, a U.S. District Court judge, sentenced her to
Inspection Service (USPIS). USPIS identified a                  six months’ incarceration, with credit for time served.
suspicious substance in two envelopes with the same
return address, one addressed to SSA in Baltimore,
                                                                New York Man Pleads Guilty to 2nd-Degree
Maryland and the second addressed to the Internal
                                                                Murder
Revenue Service (IRS) in Austin, Texas. Both of the
envelopes contained a white powdery substance, later            Our New York City office, along with the New York
identified as baking soda. The investigation identified         Police Department and USPIS, participated in a joint
the subject, a Texas man, based on the return address.          investigation of an SSI disability recipient wanted for
In May 2011, after the man pled guilty to intentionally         homicide. Our office notified USPIS that the man might
conveying a hoax and a false threat, a U.S. District            appear at his local New York postal facility to claim
Court judge, sentenced him to three years’ supervised           his SSI check. In July 2010, the man appeared at the
release to include eight months in a halfway house              postal facility and was arrested. In August 2011, after
and four months home confinement. In addition, the              the man pled guilty to murder in the second degree, a
judge ordered him to pay restitution of $2,838 to the           Kings County Supreme Court judge, Brooklyn, New
IRS for employee productivity losses suffered during            York, sentenced the man to 20 years to life in prison.
the agency’s building evacuation.


Washington Woman Threatens SSA Employee
Based on a threat report filed by the Yakima, Washington
SSA office, our Seattle office investigated a Yakima
woman who was disruptive and threatening during
her visit to the Yakima SSA office. Upon leaving the
office, she threatened an SSA employee, yelling that




16                                                                                    April 1, 2011 - September 30, 2011
                                                                                         Semiannual Report to Congress




Fugitive Enforcement Program
The OIG’s Fugitive Enforcement Program identifies individuals reported to have outstanding felony arrest warrants
and outstanding warrants for parole and probation violations. SSA shares its location information for wanted felons
with local law enforcement agencies to assist in their apprehension efforts. In turn, these agencies advise SSA on the
disposition of the warrant so SSA can take appropriate administrative action on the benefits.
Our data-sharing efforts with law enforcement agencies contributed to the arrest of 53 subjects during the reporting
period and more than 95,000 arrests since the program’s inception in 1996. The following are some examples of our
fugitive enforcement activities during the past six months:

        •OIG agents and members of the United States Marshals Service and the Warwick, Rhode Island
        Police Department reported the arrest of an SSA beneficiary wanted on an outstanding warrant dated
        April 5, 2011. The subject was arrested for Felony Sexual Assault on an Impaired Person. The
        warrant was issued by the Warwick Rhode Island Police Department.

        •OIG agents and members of the Boulder County Sheriff ’s Department reported the arrest of an
        SSA beneficiary wanted on an outstanding warrant dated August 12, 2011. The subject was arrested
        for Felony Menacing by Use of a Deadly Weapon. The warrant was issued by the Boulder County
        Sheriff ’s Office, Boulder, Colorado.

        •OIG agents and members of the United States Marshals Service, Dallas Fort Worth, Fugitive Task
        Force reported the arrest of an SSA beneficiary wanted on an outstanding warrant dated March 28,
        2011. The subject was arrested for Arson of a Habitation. The warrant was issued by the Dallas
        County Sheriff ’s Office, Dallas, Texas.

        •OIG agents and members of the United States Marshals Service, New York/New Jersey Regional
        Fugitive Task Force reported the arrest of an SSA beneficiary wanted on an outstanding warrant dated
        July 14, 2004. The subject was arrested on a 2004 Second Degree Murder warrant and a related bail
        jumping charge. The subject was located living about one mile from the residence where the SSA
        checks were being mailed. The warrant was issued by the New York City Police Department.

In an effort to improve efficiency, the OIG has installed new scanning software that uploads the fugitive enforcement
information received from law enforcement about the disposition of the felony warrant. The scanning software
uses Optical Character Recognition and Intelligent Character Recognition to capture both computer-generated and
handwritten data on the fugitive enforcement form. The software scans and translates the pertinent data, which is
indexed into a text file and uploaded to the OIG database. The software also creates an electronic copy of the fugitive
enforcement form, which eliminates the need to file a hard copy. This new automated process has allowed the OIG
to significantly increase the number of fugitive enforcement forms it processes hourly.




April 1, 2011 - September 30, 2011                                                                                  17
Semiannual Report to Congress




Legal Impact Initiatives
Section 1140 Enforcement
Section 1140 of the Act is a consumer protection tool against misleading advertising. Section 1140 prohibits, in part, the
use of SSA words and symbols in advertisements, solicitations, or other communications in a manner that conveys the
false impression that such item is approved, endorsed, or authorized by SSA, or that such person has some connection
with, or authorization from, SSA.
Communications running afoul of Section 1140 take many forms, such as deceptive paper-based mailers, misleading
attorney advertising, and misleading Internet solicitations, as well as the Internet-based sale of Social Security forms.
OCIG, using the authority delegated by the Commissioner and the Inspector General, aggressively enforces Section
1140. The statute provides for up to $5,000 in civil monetary penalties for each separate violation of the Act. The Act
also provides that a CMP of up to $25,000 may be imposed for each time a violating broadcast or telecast is viewed.
With the proliferation of social media and the Internet, there has been an increase in allegations of Section 1140
violations involving the operation of websites. In particular, there is a disturbing upward trend of allegations concerning
websites designed to appear as either the official SSA website or having an affiliation with SSA for the purpose of
charging a fee for an otherwise free SSA Application for a Social Security card (Form SS-5). SSA provides this form
at no cost on its website, as well as at SSA field offices and other SSA-approved locations throughout the nation. In
addition to design schemes, website owners and operators often enter into advertising agreements with web-hosting
entities and Internet search engines to ensure that Internet searches for terms related to obtaining a new or replacement
Social Security card will result in potential customers being directed to the imitation SSA website instead of SSA’s
official website.
In response to the increase in Section 1140 allegations, OCIG has recently launched an aggressive plan designed to
further proactive case development, to allow for more efficient and effective handling of a larger volume of Section
1140 cases, and to deter future fraudulent activity by not only enforcement, but also through educational outreach
especially targeted to the Internet industry. We are committed to enforcing Section 1140 and expanding public awareness
of these deceptive practices.




18                                                                                      April 1, 2011 - September 30, 2011
                                                                                    Semiannual Report to Congress




Maryland Investment Research Firm Agrees                    New York Attorney Agrees to Remedy Section
to $55,000 Penalty for Misleading Advertising               1140 Violation
Alleging Insider Contacts at SSA                            A New York attorney advertised his law firm in local
Stansberry & Associates Investment Research, LLC            newspapers using a replica of a Social Security card.
(Stansberry), of Baltimore, Maryland, a subsidiary          The advertisements prominently displayed the words
of Agora, Inc., promoted a misleading “Get Social           “Social Security” and “Disability,” conveying the false
                                                            impression that the advertisements were authorized,
Security No Matter What Your Age” publication, falsely
                                                            approved, or endorsed by SSA. Additionally, the
claiming to have “insiders” at SSA as a source of the
                                                            attorney used pictures of a Social Security card on
publication’s information. OCIG contacted Stansberry
                                                            the law firm website. The attorney voluntarily agreed
after reviewing a publication in which Stansberry falsely
                                                            to cease and desist from using a Social Security
implied that its publication was approved, endorsed,        card in future advertisements, discontinued current
authorized, or officially connected to SSA. While not       newspaper advertisements, and redesigned his
admitting that it violated Section 1140, Stansberry         website.
agreed to pay a CMP of $55,000 to settle the claim.
Stansberry also voluntarily ceased promotion of its
misleading publication, removed all reference to SSA
“insiders” on its website, and disabled all active links
to these materials.
According to its website, Stansberry “is an independent
investment research firm with subscribers in more than
100 different countries.” Stansberry claims to have
approximately 315,000 paid, active, unique subscribers,
and an additional 500,000 readers who subscribe to
various free e-letters and other Stansberry publications.


Kentucky Law Firm Agrees to $7,500 Penalty for
Misleading Signage
A Kentucky law firm agreed to pay a $7,500 CMP
to settle the OIG’s claim that it had violated Section
1140 of the Act. The OIG contacted the law firm
after learning that it had placed “Social Security Sign-
Up Office” signs at two of its law office locations.
Although the law firm did not admit to a violation, it
voluntarily complied with OIG’s request to remove
the signs.




April 1, 2011 - September 30, 2011                                                                              19
Semiannual Report to Congress




Enforcement of IG Subpoenas
In early FY 2011, OIG’s Office of Audit initiated a far-reaching audit to identify Title II beneficiaries whose payments
may be affected by State or local government pensions. Pursuant to that audit, we issued numerous IG subpoenas to
various State and local entities seeking financial information on certain individuals. Two State attorney general offices
refused to comply, citing privacy and confidentiality provisions of State laws.

OCIG argued that State statutes do not provide a valid legal basis for withholding information relevant to a Federal
law enforcement investigation, and that the IG’s subpoena authority, set forth at 5 USC App. 3 §6(a)(4), is not subject
to any limitations based on State laws, citing the Supremacy Clause. Nonetheless, both State agencies still declined to
comply and advised the institutions involved to withhold release of the information.

OCIG worked closely with U.S. Department of Justice attorneys over several months to prepare, file, and litigate
Petitions to Enforce IG Subpoenas in both Federal jurisdictions. Eventually, the OIG prevailed in both matters, and
both entities have now fully complied with the IG subpoenas.




20                                                                                     April 1, 2011 - September 30, 2011
                                                                                           Semiannual Report to Congress




VALUE
The second goal of the OIG Strategic Plan is Value. All OIG initiatives strive to provide value to SSA, the Congress,
other key decision-makers, and the public by delivering timely and reliable audit, investigative, and legal products and
services. To achieve their intended value, these products and services must effectively meet the needs of those we serve
while maximizing our available resources. To do this, we integrate best-practice strategies and the newest technologies
to increase our productivity and maximize our return on investment to the public.



Value Attained Through Audits
Many of our audits focus on identifying SSA programmatic and operational areas where funds could be put to better
use. In addition, we often question approaches and their accompanying costs, and we recommend alternatives to yield
program and operational savings.
During this reporting period, our auditors issued 50 reports, identifying over $1.4 billion in questioned costs and over
$1 billion in Federal funds that could be put to better use. Some of our most notable audits are summarized below.


Supplemental Security Income Recipients with Unreported Real Property
Our objective was to determine the accuracy of SSA’s determinations of SSI recipients’ resources related to real
property ownership.
SSA’s records on real property ownership matched public property records in LexisNexis for 298 of the 350 recipients
we reviewed. Of the 52 records that did not match, SSA determined that 25 recipients did not own what appeared
to be unreported properties listed in LexisNexis. For the remaining 27 recipients, SSA determined LexisNexis was
accurate and the recipients owned unreported real property. Sixteen of these 27 recipients were improperly paid about
$112,000 when the value of their unreported real property was taken into account. The Agency could not recover
approximately half of this because of its rules of administrative finality. Based on our sample results, we estimated that
about 541,580 recipients misreported real property ownership, and SSA improperly paid 320,940 of these recipients
over $2.2 billion. Comparing the costs of using LexisNexis to the benefits gained, we concluded that the use of
LexisNexis was cost-effective and would save about $350 million annually.
We recommended, and SSA agreed to: (1) assess the costs/benefits of expanded LexisNexis use in determining the
accuracy of recipients’ allegations of resources through a pilot study requiring the use of LexisNexis when initial SSI
applications are processed and SSI redeterminations are completed; (2) expand the use of LexisNexis if the pilot study
demonstrates it is cost-beneficial to do so; (3) update the current policy on similar fault determinations to include the
limitations listed in the Code of Federal Regulations, and ensure they are taken into account in determining whether
a previous determination or decision was made with similar fault; and (4) train staff on the criteria of similar fault
determinations to ensure improper payments made to SSI recipients with similar characteristics and circumstances are
treated similarly when caused by SSI recipients not reporting their resources.




April 1, 2011 - September 30, 2011                                                                                     21
Semiannual Report to Congress




Minor Children Receiving Benefits Without a Representative Payee
Our objective was to determine whether SSA appointed representative payees for minor children in accordance with
its policies.
SSA appoints representative payees for individuals who are not able to manage or direct the management of their
finances because of their youth or mental and/or physical impairment.
SSA generally presumes minor children (that is, under age 18) to be incapable of managing their own benefit payments.
SSA policy states children under age 15 must have a representative payee. However, policy also states children ages
15 through 17 may be paid directly if a certain condition exists.
SSA did not always appoint representative payees for minor children in accordance with its policies. We found that
SSA did not appoint representative payees, as required, for 1,351 minor children under the age of 15. In addition, we
estimate the Agency erroneously placed about 1,720 OASDI and 160 SSI beneficiaries ages 15 through 17 in direct pay.
We estimate approximately $66.2 million in benefits were improperly paid to minor children.
We recommend SSA: (1) remind employees to follow policies and procedures when issuing direct payments to children
under age 18; (2) follow up on 14 children under age 15 whose benefit payments were suspended pending appointment
of payees; (3) identify pending representative payee applications for children under age 15 before completing database
cleanups; (4) determine whether there is a cost-effective method for identifying undocumented representative payees
and requiring such payees to account for the use of benefits they receive; and (5) determine whether it is cost-effective
to periodically review children under age 18 in direct pay as a monitoring control. At a minimum, we believe SSA
should periodically identify all children under age 15 without a representative payee.
SSA agreed with Recommendations 1 through 4 and partially agreed with Recommendation 5.


Debt Collection Activities in the Supplemental Security Income Program
Our objective was to identify the potential financial impact if SSA performed additional debt collection activities for
SSI overpayments.
Most overpayments are recovered through benefit withholding, which, along with installment plans, are considered
collection arrangements. Therefore, our review focused on SSA’s collection arrangements in the SSI program. Since
FY 2002, the percent of outstanding SSI debt in a collection arrangement has decreased. Specifically, between FYs
2002 and 2009, SSI debt in a collection arrangement decreased by more than 5 percent. SSA stated resource constraints
in the SSI program have caused the Agency to shift focus from debt collection activities and other program integrity
workloads to maintain front-line services.
We estimated, based on historical SSI collection rates, that during FYs 2008 through 2011, SSA could have recovered
an additional $200 million of SSI debt. This could have been accomplished had SSA placed an additional $441
million of outstanding SSI debt into collection arrangements at the FY 2002 level during FYs 2008 through 2010. We
recommended SSA identify a reasonable goal for the level of SSI debt that should be in a collection arrangement each
year and dedicate the necessary resources to processing the debt collection workload to achieve the goal.
SSA disagreed with our recommendation. SSA stated it is directing its resources to more cost-effective program
integrity work, and it is using more efficient methods for preventing, detecting, and recouping SSI overpayments.
We applaud SSA for implementing new methods to prevent, detect, and recoup SSI overpayments, and understand
that SSA must balance its resources between service delivery and program integrity. However, without a goal for the
level of debt in a collection arrangement, the Congress and other stakeholders lack necessary information to assess
whether sufficient resources are allocated to debt collection activities.

22                                                                                     April 1, 2011 - September 30, 2011
                                                                                          Semiannual Report to Congress




Title II Beneficiaries Whose Benefits Have Been Suspended and Who Have a Date of
Death on the Numident
Our objective was to determine whether SSA had adequate controls to ensure it resolved death information on the
Numident for suspended beneficiaries.
To identify and prevent erroneous payments to deceased beneficiaries, SSA’s Death Alert Control and Update System
(DACUS) matches reports of death against SSA’s payment records. DACUS also records death information on the
Numident, a master file that contains personally identifiable information (PII) for each individual with an SSN. SSA
may suspend an individual’s benefits for various reasons; for example, while it searches for a representative payee, or
when it needs to verify a beneficiary’s address.
SSA needs to improve controls to ensure it takes timely and proper actions to resolve death information on the
Numident for suspended beneficiaries. We estimate that:
        • 4,699 beneficiaries remained in suspended pay status despite the death information on their Numident.
Of these, we estimate 2,976 were improperly paid approximately $23.8 million.
        • 2,715 beneficiaries’ PII was at risk of being released to the public.
        • 157 beneficiaries whose benefits were terminated were improperly paid $342,114.
We recommended that SSA: (1) take appropriate action to terminate benefits or remove erroneous death information
from the Numident for the 180 beneficiaries identified by our audit; (2) identify and take corrective action on the
population of 6,277 suspended beneficiaries with death information on their Numident; (3) take corrective action for
the 7 beneficiaries terminated for death with unresolved improper payments; (4) evaluate its corrective actions for the 7
beneficiaries and determine whether it should review the estimated 150 deceased beneficiaries with unresolved improper
payments; and (5) improve controls to ensure suspended beneficiaries with death information on their Numident are
resolved in a timely manner. SSA agreed with all our recommendations.




April 1, 2011 - September 30, 2011                                                                                    23
Semiannual Report to Congress




Follow-up: Childhood Continuing Disability Reviews and Age 18 Redeterminations
The purpose of our audit was to determine whether SSA: (1) conducted childhood continuing disability reviews
(CDR) at least every 3 years for children under age 18 whose impairments were likely to improve, in accordance
with the Act provisions; (2) conducted age 18 redeterminations before recipients attained age 20; and (3) continued
seeking special funding for CDR workloads.

Under Title XVI of the Act, SSA is required to:

       • Perform CDRs at least every 3 years on all children under age 18 whose impairments are likely to
       improve.

       • Redetermine, within 1 year of the individual’s 18th birthday, their eligibility for SSI by applying the
       adult criteria for disability.

We determined that SSA had not completed all childhood CDRs and age 18 redeterminations in a timely manner.
Based on our sample results, SSA did not complete 79 percent of childhood CDRs and 10 percent of age 18
redeterminations timely. As a result, we estimate:

       • SSA paid about $1.4 billion in SSI payments to approximately 513,300 recipients under age 18 that
       it should not have paid. Additionally, SSA will continue paying approximately
       $461.6 million annually until these reviews are completed.

       • SSA paid about $5.7 million in SSI payments to approximately 5,100 recipients who did not have
       an age 18 redetermination completed by age 20. Additionally, the Agency will continue paying
       approximately $6.3 million annually until these reviews are completed.

According to SSA, budget constraints and other priority workloads have forced the Agency to shift focus from
conducting childhood CDRs and age 18 redeterminations.

We recommended SSA conduct childhood CDRs and age 18 redeterminations within the specific timeframes
provided for in the Social Security Act.

SSA agreed to conduct childhood CDRs and age 18 redeterminations as its budget and other priority workloads will
allow.




24                                                                                    April 1, 2011 - September 30, 2011
                                                                                           Semiannual Report to Congress




Value Attained Through Investigations
During this reporting period, the efforts of our investigators yielded significant results arising from the successful
prosecution of cases that we developed and the disposition of claims we investigated. Our investigators achieved
over $223 million in monetary accomplishments, with over $45 million in SSA recoveries, restitution, fines, and
settlements/judgments; and over $177 million in projected savings from investigations resulting in the suspension,
denial or termination of benefits.
The following table represents the efforts of our personnel nationwide to recover SSA funds paid in fraudulent benefits
or through other illegal actions, or through the denial of benefits.



                                               SSA Funds Reported

                                               10/1/10 - 3/31/11    4/1/11 - 9/30/11         FY 2011

          Recoveries                             $19,737,838         $26,251,181          $45,989,019
          Fines                                    $396,187            $780,158            $1,176,345
          Settlements/Judgments                    $684,151           $2,030,771           $2,714,922
          Restitution                            $15,444,370         $16,656,744          $32,101,114
          Estimated Savings                      $150,962,739        $177,896,030         $328,858,769
          TOTAL                                 $187,225,285         $223,614,884        $410,840,169

The following case summaries are representative of the more than 3,800 investigations we closed during this reporting
period. They illustrate the many instances where our investigative efforts have resulted in a significant return on
investment.
Disability Program Fraud: Man Sells Illegal Drugs                  Disability Program Fraud: Man Misuses Identities
While Receiving Disability Benefits                                and SSNs to Steal SSA Benefits
Acting on information provided by the United States                In response to a referral provided by a Los Angeles,
Attorney’s Office, our Manchester, New Hampshire                   California SSA office, our Los Angeles office
office investigated a Title II disability beneficiary for          investigated a Hollywood, California man. A joint
failing to report the income he received from selling              investigation with the Los Angeles County District
illegal drugs. From January 2005 through September                 Attorney’s Office/Bureau of Investigation determined
2009, the man fraudulently received $41,648 in SSA                 that the man stole the identities of at least four
benefits. In April 2011, after the man pled guilty to              individuals and obtained SSN cards as well as Title II
Social Security fraud, conspiracy to possess with intent           and SSI disability payments. From November 1988
to distribute controlled substances, and possession with           through August 2010, the man fraudulently received
intent to distribute controlled substances, a U.S. District        $480,970 in Title II benefits. In May 2011, after the
Court judge sentenced him to 54 months’ incarceration              man pled guilty to identity theft and grand theft, a
and 48 months’ supervised release. In addition, the judge          Superior Court judge sentenced him to four years’
ordered him to pay restitution of $41,648 to SSA, $250             incarceration, and ordered him to pay restitution of
in Recovery Act funds, and a forfeiture of $125,000 to the         $480,970 to SSA.
U.S. Government.

April 1, 2011 - September 30, 2011                                                                                    25
Semiannual Report to Congress




Representative Payee Fraud: Woman Conspires                  included a one-time payment of $250, pursuant to the
with SSA Beneficiary to Conceal Work and Income              Recovery Act.
from SSA
Based on information provided by the Hillside, Illinois
                                                             Representative Payee Fraud: Maryland Woman
SSA office, our Chicago office investigated a Bellwood,
                                                             Sentenced to 10 Years’ Incarceration for Misusing
Illinois woman who acted as the representative payee for
                                                             Children’s SSA Benefits
an SSA beneficiary’s Title II and SSI disability payments.
From 1993 through 2005, the beneficiary used one             In response to information provided by our Fraud
SSN to work, while using a different SSN to collect          Hotline, our Baltimore, Maryland office investigated
disability benefits. During this time, the beneficiary       an Aberdeen, Maryland woman. Acting as the
                                                             representative payee for her children’s Title II
worked for various social service organizations,
                                                             auxiliary benefits, she failed to notify SSA that, since
transportation companies, and temporary staffing
                                                             April 2009, her children had been in their father’s
companies, as well as a bank, a parcel delivery service,
                                                             custody. From April 2009 through March 2010, she
and the State of Illinois. The representative payee was
                                                             fraudulently received and used her children’s benefits
aware of the beneficiary’s work activities and earnings,     for her own personal expenses. In June 2011, after
and concealed this information from SSA. In April            the woman pled guilty to a State charge of theft
2011, after the representative payee pled guilty to wire     over $1,000, a Circuit Court judge sentenced her to
fraud, a U.S. District Court judge sentenced her to eight    10 years’ incarceration (5 years’ suspended) and 3
months’ home confinement with electronic monitoring          years’ supervised probation, and ordered her to pay
and five years’ probation, and ordered her and the           restitution of $31,042 to SSA.
SSA beneficiary to jointly pay restitution of $50,442 to
SSA. In addition, the judge ordered the representative
payee to continue mental health counseling, and to pay       Representative Payee Fraud: Nevada Woman
restitution of $26,200 to DHS’s Federal Emergency            Misuses Deceased Father’s SSA Benefits
Management Agency for benefits she fraudulently
obtained by falsely claiming that she was a Hurricane        Based on information provided by the Las Vegas,
Katrina victim.                                              Nevada SSA office, our Las Vegas office investigated
                                                             a woman acting as the representative payee for her
                                                             father’s Title II retirement benefits. She intentionally
Representative Payee Fraud: Woman Conceals                   provided a false statement to SSA, advising that her
Disabled Son’s Incarceration                                 father was still living; however, her father had died
Acting on information provided by the Inkster,               in September 1988. From September 1988 through
Michigan SSA office, our Detroit office investigated         September 2009, she continued to receive her deceased
a Detroit woman. Acting as the representative payee          father’s benefits. In April 2011, after the woman
for her son’s Title II and SSI disability payments, she      pled guilty to theft of Government funds and false
concealed her son’s 20-year incarceration under an           statements, a U.S. District Court judge sentenced her
alias identity and continued to collect his benefits.        to 18 months’ incarceration and 3 years’ supervised
She provided false statements to SSA, and hired an           release, and ordered her to pay restitution of $207,401
individual to pose as her son at meetings with SSA.          to SSA.
In April 2011, after the woman pled guilty to theft
of Government funds, a U.S. District Court judge,
Eastern District of Michigan, sentenced her to 2 years’
probation, 4 months’ home confinement, and 100
hours of community service; and ordered her to pay
restitution of $119,000 to SSA. The restitution order

26                                                                                April 1, 2011 - September 30, 2011
                                                                                      Semiannual Report to Congress




Representative Payee Fraud: Georgia Woman Mis-               Deceased Payee Project: Virginia Woman Collects
uses her Children’s SSA Benefits                             Federal Retirement Benefits Intended for Deceased
Based on information provided by the Blue Ridge,             Relatives
Georgia SSA office, our Atlanta office investigated a        Our Philadelphia office investigated a woman who
Jefferson, Georgia woman. Acting as the representative       concealed the deaths of two relatives and accessed more
payee for her two children’s Title II survivors benefits,    than $220,000 from their Federal pension and Title II
she provided false statements in the initial application     retirement benefits. Additionally, the woman and her
for benefits, concealed the children’s true living           husband filed for bankruptcy and failed to report the
arrangements, and failed to use the SSA money for            benefits.
the children’s care. In April 2011, after the woman
                                                             The investigation revealed that after the deaths of her
pled guilty to providing false statements, a U.S. District
                                                             mother and mother-in-law in April 2000, the woman
Court judge sentenced her to five years’ probation and
                                                             accessed her mother’s Title II widow’s benefits and her
six months’ home confinement, and ordered her to pay
                                                             mother-in-law’s Federal civil service pension for her
restitution of $189,180 to SSA.
                                                             personal use.
                                                             In May 2011, after the woman pled guilty to theft of
Deceased Payee Project: Texas Man Obtains                    Government property, a U.S. District Court judge
Deceased Mother’s SSA Benefits                               sentenced her to 24 months’ incarceration and 3 years’
Our Houston office investigated a man who failed to          supervised release, and ordered her to pay restitution of
notify SSA that his mother died in November 2006,            $74,108 to SSA and $149,348 to OPM.
and continued to receive her Title II widow’s benefits.
From December 2006 through September 2009, the
deceased’s son converted $57,843 in SSA benefits to
his own use.
 The man pled guilty to theft, and in August 2011, a
Harris County, Texas District Court judge sentenced
him to three days’ incarceration, and ordered him to
pay restitution of $57,843 to SSA.




April 1, 2011 - September 30, 2011                                                                                 27
Semiannual Report to Congress




Cooperative Disability Investigations Program
Our CDI Program continues to be one of our most successful initiatives, contributing to the integrity of SSA’s disability
programs. CDI is a joint effort of the OIG, SSA, disability determination services (DDS), and State and local law
enforcement personnel. Established in 1998 with units in just five states, our CDI program now has 24 Units in 21
States. The Units work to obtain sufficient evidence to identify and resolve issues of fraud and abuse related to initial
and continuing disability claims.
The following CDI case summaries highlight major investigations we conducted during this reporting period that
enhanced SSA program integrity and the reliability of SSA’s operations.

Missouri Man Fakes Vision Problems                               Oregon Teen Feigns Developmental Impairments
Our Kansas City, Missouri CDI Unit investigated a                Our Salem, Oregon CDI Unit investigated a 17-year-
36-year-old man who applied for SSI disability payments          old who applied for SSI disability payments based on
based on vision problems. The applicant alleged that             developmental delays and memory problems. The
he was unable to see well enough to work or drive.               Salem DDS referred this case because they suspected
He also stated that he had difficulty standing, walking,         the applicant was feigning his impairments.
lifting, and climbing stairs. The Missouri DDS referred
                                                                 The CDI unit’s investigation revealed that the police
this case to the CDI Unit due to inconsistencies in the
                                                                 arrested the teen in March 2009 for assault and
applicant’s medical records.
                                                                 disorderly conduct and in July 2010 for interfering
The CDI unit’s investigation revealed that the applicant         with public transportation. The CDI investigation
had a revoked driver’s license. Between July 2005                also disclosed that the teen was reportedly selling drugs
and May 2010, the applicant had been arrested and                on the premises of the apartment complex where he
prosecuted five different times for driving offenses.            resided and that he was a suspect in a prostitution
Upon review of the man’s prison records, investigators           investigation.
found that the applicant resided in general population
                                                                 During an interview, CDI investigators observed and
housing units and not in a medical facility, and there
                                                                 interviewed the teen about various aspects of his life
were no special needs or limitations relating to the
                                                                 and lifestyle. The teen was alert, well oriented to his
applicant.
                                                                 surroundings, and had no trouble tracking or hearing
Based on our investigation, the Missouri DDS denied              conversation. The teen gave appropriate responses
the man’s SSI application.                                       to the questions without difficulty and demonstrated
                                                                 that he had a good memory of past events in his life.
                                                                 The teen advised that he is currently unemployed
                                                                 but seeking employment and trying to get back into
                                                                 school. The applicant advised that he gets out daily,
                                                                 socializes with friends, and gets around by walking or
                                                                 using public transportation.
                                                                 Based on the investigation, the Salem DDS denied the
                                                                 teen’s SSI application.




28                                                                                     April 1, 2011 - September 30, 2011
                                                                                      Semiannual Report to Congress




New Jersey Man Feigns Disability                             Chicago Woman’s Social Media Website Account
Our Iselin, New Jersey CDI Unit investigated a 42-year-      Belies Disability
old man who applied for Title II disability benefits based   Our Chicago, Illinois CDI Unit investigated a
on neck hernias, weakness in both arms, leg numbness,        21-year-old woman who applied for Title II disability
tremors in legs and arms, and poor vision. The man           benefits based on mental retardation. SSA denied the
indicated that he had problems lifting, walking, sitting,    woman benefits twice previously based on the same
remembering, and using his hands. A physician with           alleged disability. On her most recent application,
the New Brunswick DDS referred this case due to              the woman reported being unable to drive a vehicle
discrepancies in the medical records, which indicated        and having difficulty completing tasks, remembering,
that his gait and station were normal.                       concentrating, understanding, and following
                                                             instructions. The Springfield, Illinois DDS referred this
The CDI unit investigators observed the applicant
                                                             case due to suspicions of malingering and indications
carrying paperwork in his left hand, as well as a plastic
                                                             of drug abuse.
shopping bag and a metal cane hooked over his left
forearm. The cane did not touch the ground, and the          The CDI unit’s investigation revealed that the woman
man did not appear to be wearing any form of brace.          was able to maintain a social media website. When
The man walked at what appeared to be a normal pace          interviewed, the woman stated that she did not use a
and stride without his cane.                                 computer and denied having a social media account.
                                                             She also stated that she did not work, but would like
Based on the investigation, the New Brunswick DDS
                                                             to work in a warehouse, and that she had submitted
denied the man’s application for Title II benefits.
                                                             several applications for employment.
                                                             Based on the investigation, the Springfield DDS denied
Georgia Man Feigns Disability to Receive SSA                 the woman’s application for Title II benefits.
Benefits
Our Atlanta, Georgia CDI Unit investigated a
52-year-old man who applied for Title II and SSI
disability payments based on allegations of diabetes,
hypertension, high cholesterol, depression, back and
knee pain, and memory loss. The applicant moved
from Ethiopia as a refugee in 1999, and stated that he
has had no formal education.
A staff psychologist from the Atlanta DDS referred
this case due to inconsistencies in medical records.
A treating physician had diagnosed depression and
memory loss during a visit; however, there was never
any follow-up or referrals to specialists.
The CDI unit’s investigation revealed that the applicant
does not walk with a cane or walker, has not displayed
any abnormal behavior, mowed his lawn, appeared to
be sociable with others, and played basketball with his
children. Based on the investigation, the Atlanta DDS
denied the man’s application.



April 1, 2011 - September 30, 2011                                                                                 29
Semiannual Report to Congress




                                 Cooperative Disability Investigations Program Results


                                              Allegations                  Confirmed Fraud                      SSA Savings1                  Non-SSA Savings2
                State                          Received                         Cases

           Arizona                                 212                                 87                        7,600,735                          4,343,746
          Arkansas                                 25                                  22                        1,865,945                          1,102,850
          California3                              464                                 159                       12,646,800                        10,591,707
          Colorado                                 114                                 60                        5,407,500                          3,280,516
           Florida                                 78                                  49                        4,030,063                          2,518,355
           Georgia                                 149                                 112                       9,608,749                          5,635,680
           Illinois                                99                                  66                        4,993,758                          2,974,912
          Kentucky                                 32                                   0                            0                                  0
          Louisiana                                146                                 66                        5,732,128                          3,654,026
        Massachusetts                              98                                  60                        5,407,500                          3,772,319
          Missouri4                                265                                 117                       9,960,961                          6,054,409
         New Jersey                                131                                 60                        5,405,274                          3,536,871
          New York                                 77                                  42                        3,790,027                          2,568,161
            Ohio                                   298                                 158                       13,593,894                        10,277,222
          Oklahoma                                 105                                 34                        3,064,250                          1,468,914
           Oregon                                  154                                 144                       12,803,602                         8,736,044
        South Carolina                             173                                 110                       9,078,717                          5,580,499
          Tennessee                                130                                 55                        4,956,875                          2,575,753
            Texas5                                 306                                 189                       15,510,823                        10,290,723
            Utah6                                  164                                 36                        3,244,500                          1,825,680
           Virginia                                120                                 76                        6,849,500                          5,002,632
         Washington                                128                                 97                        7,286,703                          4,389,464
     Total (10/1/10-3/31/11)                      2,768                               1,584                     128,421,603                        82,323,588
     Total (4/1/11-9/30/11)                       3,468                               1,799                     152,838,3047                       100,180,483
             FY 2011                              6,236                               3,383                     281,259,907                        182,504,071
     1 SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations.  When a CDI investigation supports
       the cessation /termination of an in-pay case, SSA program savings are calculated using a formula that takes into account the average number of years that SSA
       has determined that a person remains on its rolls, as well as other factors.
     2 Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation, using
       estimated or actual benefit amounts documented by the responsible agency.
     3 California has two units, one in Los Angeles and the other in Oakland.
     4 Missouri has two units, one in Kansas City and the other in St. Louis.
     5 Texas has two units, one in Dallas and the other in Houston.
     6 Three new CDI units became operational during this reporting period. The units are located in Salt Lake City, Utah; Oklahoma City, Oklahoma;
       and Lexington, Kentucky.
     7 These monies are included in the estimated savings reported in the chart on page 25.




30                                                                                                                                April 1, 2011 - September 30, 2011
                                                                                      Semiannual Report to Congress




Value Attained Through Legal Initiatives
OCIG’s efforts to administer the portion of the CMP program that deals with violators of Section 1129 of the
Act maximize resources available to us and create a positive return on investment. Section 1129 of allows for the
imposition of a CMP against those who make false statements or representations in connection with obtaining or
retaining benefits or payments under Titles II, VIII, or XVI of the Act. In addition, CMPs may be used to penalize
representative payees for wrongful conversion of payments and to penalize individuals who knowingly withhold a
material fact from SSA. After consultation with the DOJ, OCIG is authorized to impose penalties of up to $5,000
for each false statement, representation, conversion, or omission. A person may also be subject to an assessment, in
lieu of damages, of up to twice the amount of any resulting overpayment. The following table and cases highlight
the value achieved through our Section 1129 efforts for this reporting period:




                                     Civil Monetary Penalty Activity Under
                                                 Section 1129
                                               10/1/10 - 3/31/11   4/1/11 - 9/30/11        FY 2011

           Cases Received                           907                1019                1926
           Cases Initiated                           72                 240                 314
           Cases Closed                             751                 720                1471
           Penalties and Assessments Imposed      $697,913          $2,100,259          $2,798,172
           Number of Hearings Requested              4                   1                   5
          Cases Successfully Resolved
          (settled case, favorable judgment,         16                  51                  67
          or penalty imposed)




April 1, 2011 - September 30, 2011                                                                               31
Semiannual Report to Congress




Massachusetts Business Owner Conceals Income                Kansas City Woman Conceals Her Work Activity
and Disqualifying Overseas Residence                        and Falsely Claims Misuse of Her SSN by a Third
A Massachusetts man failed to inform SSA that he            Party
was living outside of the United States for at least 30     A Kansas City woman received Title II and SSI
consecutive days each year from 2001 to 2009. This          payments from August 2005 through April 2010 by
rendered him ineligible for the $14,382 in SSI payments     falsely advising SSA that someone else worked and
he received. During this period, he also failed to report   reported earnings using her SSN. She successfully
excess resources and income, including an ice cream         persuaded SSA to remove any earnings for calendar
vending business, a house, and other real estate in         years 2005, 2006, and 2007 that were posted to her SSN
the Middle East, and an overseas olive oil harvesting       account in order to ensure that her benefits would not
business.                                                   be terminated. During questioning by OIG Special
                                                            Agents, she admitted that the earnings from August
The subject entered into a settlement agreement and
                                                            2005 through April 2010 were indeed hers, and she
agreed to pay a CMP of $58,764, including a $30,000
                                                            provided a written statement. Her earnings during this
fine and an assessment of $28,764.
                                                            period made her ineligible to receive Title II disability
                                                            or SSI payments. For this 17-month period, she cashed
Massachusetts Man Fails to Report Mother’s                  17 checks that she was not eligible to receive.
Death in Order to Receive Her Widow’s Benefit               OCIG imposed a CMP of $42,500 and an assessment
Checks                                                      of $35,447, for a total of $77,947.
A Massachusetts man failed to report his mother’s
death, which allowed him to continue to receive her         Virginia Woman Conceals Marriage and Husband’s
Social Security benefits for three years after her death,   Earnings
resulting in an overpayment of $30,499. In January
2010, the subject sent a letter to SSA’s Pittsfield         A Virginia woman received SSI payments by concealing
office confessing that he had improperly received           from SSA, on her 2002 benefit application, that she
his mother’s SSA benefits after her death. OCIG             was married. SSA did not learn of her marriage until
successfully negotiated a settlement of $40,599,            she applied for Title II retirement benefits on her
including a $10,000 penalty.                                husband’s account in 2010. The OIG investigation
                                                            confirmed that she had resided with her husband at all
                                                            times and that her husband’s wages made her ineligible
                                                            for SSI. OCIG successfully negotiated a settlement
                                                            of $40,000, which included an assessment of $35,000
                                                            and a penalty of $5,000.




32                                                                                April 1, 2011 - September 30, 2011
                                                                                    Semiannual Report to Congress




Texas Man Penalized for Falsifying and Concealing           Tennessee Woman Devises Fraudulent Living
Work Activity                                               Arrangement Scheme in Order to Obtain Benefits
A Texas man received Title II disability benefits by        for Disabled Child
concealing from SSA on his benefit application that he      A Tennessee mother who had served as her daughter’s
was working for approximately 44 months. An OIG             representative payee since 1996 concealed substantial
investigation confirmed that the man was working            changes in her family’s income and living arrangements
while collecting disability benefits without notifying      in order to continue receiving SSI on behalf of her
SSA of his work status. OCIG negotiated a settlement        daughter. For six years, on numerous forms she
agreement including an assessment of $31,848 and            completed to update her daughter’s SSI eligibility, she
a penalty of $13,500 for a total amount of $45,348.         failed to report that the combined income from her
                                                            job and her husband’s job exceeded the limit for SSI,
Ohio Woman Improperly Received $110,710 in                  eligibility and falsely represented to SSA that she and
SSI Payments                                                her husband had separated and that she resided with her
                                                            parents in another city. As a result, she received more
The subject failed to report her marriage while             than $20,000 for which her daughter was not eligible.
receiving SSI. At the time she applied for SSI in 1991,     After a hearing, the ALJ upheld a penalty of $61,000.
she informed SSA that she was not married. In a
Redetermination that she completed in 2009, she stated      Kentucky Benefits Specialist Agrees to CMP
that she had never married. However, in 2010, when          Settlement of $36,662 for Failing to Notify SSA
she applied for Title II spouse’s insurance benefits, she   of Aunt’s Death
stated that she was married and began living with her
                                                            A Kentucky man, who served as the representative
husband in 1968. Her failure to report her marriage
                                                            payee on behalf of his aunt, failed to notify
and living arrangements from 1991 to 2010 caused            SSA of her death for almost two years. As the
SSA to pay her $110,710 in benefits to which she was        representative payee, he was required to notify SSA
not entitled.                                               of a change in circumstances. However, he continued
OCIG imposed a CMP of $55,000 and an assessment             to endorse and negotiate the monthly checks on
of $55,710 for a total of $110,710.                         twenty occasions as if his aunt were still alive.

                                                            During an interview with OIG Special Agents, he
                                                            admitted that he deposited his aunt’s checks into
                                                            his personal bank account after her death. The
                                                            subject, who worked as a benefits specialist in a
                                                            community organization, admitted that he knew
                                                            he was not entitled to receive the benefits after his
                                                            aunt’s death. He agreed to pay a $20,000 CMP and a
                                                            $16,662 assessment, for a total recovery of $36,662.




April 1, 2011 - September 30, 2011                                                                              33
Semiannual Report to Congress




Illinois Woman Diverts Benefit Payments While              Texas Representative Payee Assists His Son in
Serving as Representative Payee                            Hiding Work From SSA
An Illinois woman serving as a representative payee        The owner of a service station in Texas served as
converted benefit payments to her own use instead          representative payee for his son, who was collecting
of for the care and support of her nephew. An OIG          Title II disability based on his claim that he was unable
investigation revealed that she also concealed for         to work. Based on an anonymous tip, an OIG Special
more than three years that her nephew was no longer        Agent discovered that this beneficiary was actually
disabled and had returned to work. OCIG negotiated         working full-time at his father’s service station and
a settlement agreement including an assessment of          thus ineligible for benefits based on his income. In
$15,507 and a penalty of $7,000, for a of $22,507.         addition, because the beneficiary had been receiving
                                                           Title II disability, his own son had also been improperly
Georgia Woman Abuses                 Her    Role     as    receiving Title II auxiliary benefits while residing
Representative Payee                                       with the beneficiary’s estranged wife. Because of the
                                                           representative payee’s failure to notify SSA regarding
A Georgia woman, who served as the representative
                                                           his son’s work activity, the representative payee was
payee for a friend since 2005, failed to report that
                                                           also determined to be responsible for his grandson’s
the friend was in prison from 2007 to 2009 and was
                                                           improper receipt of benefits.
ineligible for SSI. She also made false statements on
two annual representative payee reports, on which
                                                           The subject acknowledged his responsibility for failing
she inaccurately certified that she was spending the
                                                           to report that his son was no longer disabled and was
SSI payments on her friend’s needs and that there had
                                                           working, and entered into a settlement agreement to
been no changes to her friend’s living arrangements
                                                           pay a total CMP of $25,410.
during the past year. As a result of her wrongdoing,
the woman fraudulently received $15,794 to which
she was not entitled. Following an OIG investigation,      Washington Representative Payee Improperly
OCIG negotiated a settlement agreement under which         Receives SSI on Behalf of Her Daughter
the woman agreed to repay SSA the full amount of
the overpayment and a penalty of $10,000.                  SSA OIG received information indicating that a
                                                           Washington woman, acting as the representative
                                                           payee for her daughter, negotiated 24 SSI payments
Illinois Mom Lies to SSA About Baby’s                      while her daughter was not in her custody. She falsely
Whereabouts to Continue Receiving SSI                      indicated that she had used all of her daughter’s
An Illinois mother applied for SSI payments on behalf      benefits for her support, when, in fact, she had
of her newborn baby due to fetal alcohol syndrome-         converted the benefits to her own use. The subject
related low birth weight. The Illinois Department of       agreed to pay $12,869 for the overpayment and a
Family Services, who also had custody of her seven         $3,000 CMP, for a total recovery of $15,869.
other children, placed the infant into a foster home.
Over the next 39 months, the mother filed several
false documents with SSA certifying that the baby
resided with her, that she cared for the child, and that
she spent all the SSI she received on her baby’s needs.
Eventually, a roommate of hers reported the situation.
OCIG imposed a CMP of $66,260, including $26,260
overpayment and a $40,000 penalty.




34                                                                               April 1, 2011 - September 30, 2011
                                                                                           Semiannual Report to Congress




PEOPLE
The third goal of the OIG Strategic Plan is People. The collective effort of our employees continues to be the
driving force behind our organization’s success in meeting its mission. We provide an encouraging and rewarding
work experience with the goal of retaining these exceptional individuals. OIG leadership fosters an environment
where employees can realize their potential through training and developmental programs. OIG components convene
training sessions to inform their employees about new procedures at various levels of our organization. In addition, the
OIG Organizational Health Committee conducts an annual assessment of employee satisfaction levels and addresses
employee concerns.



Budget
For FY 2011, our annual appropriation was $102.4 million, which supported an end-of year staffing level of 573.
The salaries and benefits of employees account for 87 percent of overall spending. The remaining 13 percent is
used for necessary expenses such as travel, training, communications, reimbursable work authorizations, and general
procurements, as well as to provide for basic infrastructure needs such as rent and interagency service agreements.
The FY 2011 budget supports our efforts to meet and exceed the expectations set forth in the OIG Strategic Plan
for Fiscal Years 2011 – 2015. The goals and accomplishments measured in the Strategic Plan are also published in the
Annual Congressional Budget Justification.



Human Resource Planning and Management
We actively pursue and work to retain the best possible employees. First, our staffing plan forecasts employee departures
based on historical trends and human resource data, which allows us to establish optimal timeframes for recruiting new
employees. Moreover, OIG managers monitor staffing to ensure that vacant positions are filled promptly, ensuring
that OIG components have the ability to fulfill their respective missions.
Our human resource specialists and recruiters actively seek out and participate in national and virtual career fairs
in our ongoing effort to attract the best and brightest talent to OIG. Ongoing evaluation and updating of our
recruitment displays and brochures continue to enhance our outreach efforts. These events enable us to actively recruit
underrepresented groups in the labor market, enabling us to maintain a truly diverse workforce. OIG hired 12 employees
during the second half of FY 2011. Of these 12, five individuals (42 percent of new hires) were from minority groups.
Once we identify the best candidates, we utilize a structured interview process to equitably assess candidates’ skills and
qualifications. This process has been instrumental in predicting the future success of new employees. Additionally, OIG
completed its second Leadership Development Program in July 2011. This 18-month career development program
is an outreach of our succession planning efforts. It provides participants with opportunities to acquire leadership
skills through a variety of assignments, training and mentoring and ensures that OIG has a well-developed cadre of
highly qualified candidates for future leadership positions. One program participant was permanently promoted; all
other program participants successfully completed the program and are now well poised to accept the leadership
challenges a Federal career can offer. Our succession planning and knowledge-transfer strategies focus on creating
a culture to ensure smart recruitment, tailored internal training, effective leadership transition efforts, and reciprocal
developmental programs. In addition to participating with agency developmental programs, OIG is working to expand
current developmental programs to utilize knowledge transfer practices, bridge knowledge gaps, and drive innovation
for organizational performance improvement.


April 1, 2011 - September 30, 2011                                                                                     35
Semiannual Report to Congress




Information Technology
During this reporting period, OIG Information Technology (IT) specialists worked to further automate and streamline
administrative and business processes. We implemented a new Property Management System, which incorporates
workflows and approval chains to ensure that assets are assigned, tracked, and archived in accordance with policy.
We also developed a process to streamline the reconciliation of travel, training, and procurement transactions in our
automated budget system. We will continue to automate our existing business processes in an effort to decrease costs
and increase efficiency.
To expand telework, we revised our existing Telework Program policy to strengthen definitions of eligibility expand
participation and promote effectiveness of the program. During this reporting period, we expanded out telework
participation by 200 percent, with plans for additional expansion by the end of the year. This expansion was made
possible by considerable progress in the area of secure remote connectivity by our Information Technology Division.
The virtual private network and virtual desktop technologies we implemented allow for a productive remote workforce
without sacrificing the security of sensitive information. These steps align the OIG with the goals and requirements
of the Telework Enhancement Act of 2010.
In support of the President’s goal to expand electronic services, we maintain an Internet website that is both informative
and useful to the public. A fraud reporting form is included on the site, which provides a secure and confidential
mechanism for members of the public to report fraud, waste, and abuse within SSA’s programs and operations. A
workgroup comprised of administrative specialists, attorneys, auditors, and investigative personnel continually monitor
the OIG website to ensure that information is accurate and up-to-date, and to identify enhanced capabilities and
opportunities for improvement to the site.
Finally, our IT staff analyzes industry trends to find new technologies that may enhance our business processes. During
this reporting period, we have continued to expand the use of virtual technologies and have begun to pilot virtual
desktop infrastructure for both internal and remote use, to reduce hardware and deployment costs and enhance data
security. We have also utilized virtualization to decrease the number of physical servers in use, which has reduced
power consumption and increased system uptime. OIG IT specialists continue to meet the challenge of providing a
variety of IT support services for more than 70 OIG offices throughout the country.




36                                                                                      April 1, 2011 - September 30, 2011
                                                                                           Semiannual Report to Congress




Outreach Efforts
We are always seeking new ways to reach out to the wider Federal community as well as to public citizens. In a variety of
venues, we share our mission of promoting integrity and excellence in Social Security programs and operations. These
occasions are important opportunities to exchange information and forge partnerships. They also give us the chance
to educate and inspire public confidence in Federal programs. The following is an example of outreach conducted by
OIG officials and personnel during this reporting period:
        • The Deputy Assistant Inspector General for Audit serves as the IG representative to the Federal Audit
        Executive Council’s Information Security and Privacy Advisory Board under the National Institute of
        Standards and Technology.
        • OA’s Boston office coordinated efforts on improper payments with OMB and CIGIE. The Deputy
        Assistant Inspector General for Program Audit and Evaluations gave an improper payments presentation
        for the Potomac Forum, Ltd., Washington, D.C.
        • In September 2011, the Director for OA’s Technical Services Division completed a presentation at
        an American Institute for Certified Public Accountants conference.
        • Two auditors in Boston attended the Occupational Information Development Advisory Panel meetings
        in May, July, and September 2011. http://mwww.ba.ssa.gov/oidap/
        • The Boston OA office represented the United States in the Windsor Fraud Group, a group consisting
        of six countries, and coordinated issues on social insurance type fraud with Australia, Canada, Ireland,
        New Zealand, and the United Kingdom.
        • Agents from our field divisions (nationwide) continue to conduct security and fraud awareness training
        for SSA employees. The training includes employee safety, our fraud referral process, and helpful tips
        on how to complete a fraud referral form.
        • An agent from our Seattle office provides on-going training sessions relating to fraud, waste, and abuse
        to a new investigative unit recently created by the Department of Disability Determination Services/
        Health and Human Services for the State of Washington.
        • The Resident Agent-in-Charge of our Houston office attended and provided an overview of our
        operations at the initial meeting of the Financial Crime Working Group at the Federal Bureau of
        Investigation office in Houston.
        • The representatives from our Richmond office met with members of the Commonwealth of Virginia,
        Office of the Attorney General, Medicaid Fraud Unit to discuss the importance of Federal, State and
        local partnerships when conducting Federal investigations.




April 1, 2011 - September 30, 2011                                                                                    37
R eporting R equirements
         and
      Appendices
                                                                                                  Semiannual Report to Congress




        Reporting Requirements
        This report meets the requirements of the Inspector General Act of 1978, as amended, and
        includes information mandated by Congress.


                Section                               Requirement                                 Page(s)

              Section 4(a)(2)    Review of legislation and regulations                              N/A


              Section 5(a)(1)    Significant problems, abuses, and deficiencies                     8-38

              Section 5(a)(2)    Recommendations with respect to significant problems,              8-10
                                 abuses, and deficiencies                                           21-24

              Section 5(a)(3)    Recommendations described in previous Semiannual                 Appendix
                                 Reports on which corrective actions are incomplete                F&G

              Section 5(a)(4)    Matters referred to prospective authorities and the                14-20
                                 prosecutions and convictions that have resulted                    25-36

             Section 5(a)(5) &
                                 Summary of instances where information was refused                 N/A
              Section 6(b)(2)


              Section 5(a)(6)    List of audits                                                  Appendix B


                                                                                                    8-10
              Section 5(a)(7)    Summary of particularly significant reports
                                                                                                    21-24

                                 Table showing the total number of audit reports and total
              Section 5(a)(8)                                                                    Appendix A
                                 dollar value of questioned costs

                                 Table showing the total number of audit reports and total
              Section 5(a)(9)                                                                    Appendix A
                                 dollar value of funds put to better use

                                 Audit recommendations more than 6 months old for which
             Section 5(a)(10)                                                                    Appendix A
                                 no management decision has been made

                                 Significant management decisions that were revised during
             Section 5(a)(11)                                                                       N/A
                                 the reporting period

                                 Significant management decisions with which the Inspector
             Section 5(a)(12)                                                                    Appendix D
                                 General disagrees




                                                                                             Reporting Requirements  •

April 1, 2011 - September 30, 2011                                                                                          39
Semiannual Report to Congress




            Appendix A: Resolving Audit Recommendations
            The following chart summarizes SSA’s responses to our recommendations for the recovery or
            redirection of questioned and unsupported costs. Questioned costs are those costs that are
            challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that
            are questioned because they are not justified by adequate documentation. This information is
            provided in accordance with P.L. 96-304 (the Supplemental Appropriations and Recession Act of 1980)
            and the Inspector General Act of 1978, as amended.

                                Reports with Questioned Costs for the Reporting Period
                                                April 1, 2011 – September 30, 2011
                                                                                        Value             Value
                                                                        Number
                                                                                      Questioned       Unsupported
                 A.	For which no management decision had
                    been made by the commencement of the                    29         $124,546,506       $70,983,272a
                    reporting period.
                 B.	Which were issued during the reporting
                                                                           11b        $1,434,659,412         $599,685
                    period.


                      	 Subtotal (A + B)                                    40        $1,559,205,918      $71,582,957


                 	Less:


                 C.	For which a management decision was
                                                                            23         $101,799,623       $70,919,095
                    made during the reporting period.


                 	 i.	 Dollar value of disallowed costs.                    18          $98,272,760          $100,366


                 	 ii.	 Dollar value of costs not disallowed.               5            $3,526,863       $70,818,729

                 D.	For which no management decision had
                    been made by the end of the reporting                   17        $1,457,406,295         $663,862
                    period.

            a.
                 This balance reflects an adjustment from prior semiannual reports.
            b
                 See reports with Questioned Costs in Appendix B of this report.




40                                                                                             April 1, 2011 - September 30, 2011
                                                                                                  Semiannual Report to Congress




             The following chart summarizes SSA’s response to our recommendations that funds be put
             to better use through cost avoidances, budget savings, etc.


                      Reports with Recommendations that Funds Be Put to Better Use
                           Reporting Period April 1, 2011 - September 30, 2011

                                                                                      Number       Dollar Value
               A. For which no management decision had been made by
                                                                                             4         $71,873,221
                  the commencement of the reporting period.

               B.	 Which were issued during the reporting period.                            7a     $1,097,518,118


               		     Subtotal (A + B)                                                       11     $1,169,391,339


                    	 Less:

               C.	 For which a management decision was made during
                   the reporting period.
                 i. Dollar value of recommendations that were agreed to
                                                                                             5        $138,093,609
                    by management.

                    (a) Based on proposed management action.                                 5        $138,093,609


                    (b) Based on proposed legislative action.                                0                 $0


                 ii.	 Dollar value of costs not agreed to by management.                     2        $203,127,559


               		     Subtotal (i + ii)                                                      7        $341,221,168

               D.	For which no management decision had been made by
                                                                                             4        $828,170,171
                  the end of the reporting period.


                ­a. See reports with Funds Put to Better Use in Appendix B of this report.




April 1, 2011 - September 30, 2011                                                                                          41
Semiannual Report to Congress




          Appendix B: Reports Issued
                                      Reports with Non-Monetary Findings
                                     October 1, 2010 – September 30, 2011
            Audit Number                                    Report                                  Issue Date

                                Congressional Response Report: The Social Security
             A-08-10-20181                                                                          10/15/2010
                                Administration's Financial Literacy Research Consortium

                                Management Advisory Report: Single Audit of the State of
             A-77-11-00001                                                                          10/21/2010
                                Montana for the 2-Year Period Ended June 30, 2009

                                Customer Waiting Times in the Social Security Administration's
             A-04-10-11034                                                                          10/27/2010
                                Field Offices

                                The Social Security Administration's Approval and Monitoring
             A-14-10-21082                                                                          10/27/2010
                                of the Use of Software

                                Congressional Response Report: The Social Security
             A-14-11-21138      Administration's Disaster Recovery Capabilities (Limited            11/1/2010
                                Distribution)

                                Monitoring Controls for the Help America Vote Verification
             A-03-09-29114                                                                          11/5/2010
                                Program

                                Fiscal Year 2010 Inspector General Statement on the Social
             A-02-11-11131      Security Administration's Major Management and Performance          11/8/2010
                                Challenges

             A-15-10-10113      Fiscal Year 2010 Financial Statement Audit Oversight                11/8/2010

                                Field Office Workload Related to Nonconfirmation Responses
             A-03-09-19052                                                                          11/9/2010
                                from the Employment Verification Program

                                Identifying Requirements for the Disability Case Processing
             A-44-10-20101                                                                          11/9/2010
                                System Based on Findings from Prior Audits

                                Management Advisory Report: Single Audit of the State of
             A-77-11-00002                                                                          11/9/2010
                                California for the Fiscal Year Ended June 30, 2009

                                Congressional Response Report: The Social Security
             A-13-11-21110                                                                          11/10/2010
                                Administration's Facilities Management

                                The Social Security Administration's Controls for Ensuring
             A-14-10-11003      the Removal of Sensitive Data from Excessed Computer                11/10/2010
                                Equipment




42                                                                                         April 1, 2011 - September 30, 2011
                                                                                               Semiannual Report to Congress




                                      Reports with Non-Monetary Findings
                                     October 1, 2010 – September 30, 2011
             Audit Number                                   Report                                   Issue Date
                                Fiscal Year 2010 Evaluation of the Social Security
              A-14-10-20109     Administration's Compliance with the Federal Information            11/10/2010
                                Security Management Act
                                Office of Disability Adjudication and Review Decision-Writing
              A-02-09-19068                                                                         11/17/2010
                                Process
                                Management Advisory Report: Single Audit of the
              A-77-11-00003     Government of the District of Columbia for the Fiscal Year          11/24/2010
                                Ended September 30, 2009

                                Job Information Used in the Social Security Administration’s
              A-01-10-21024                                                                         11/30/2010
                                Disability Claims Adjudication Process

                                Threats Against Social Security Administration Employees or
              A-06-10-20123                                                                         11/30/2010
                                Property

                                The Social Security Administration's Informing Beneficiaries of
              A-15-09-19075                                                                         11/30/2010
                                Domestic Electronic Banking Options

                                Management Advisory Report: Single Audit of the State of
              A-77-11-00005                                                                          12/1/2010
                                Colorado for the Fiscal Year Ended June 30, 2009

                                Accuracy of Diagnosis Codes in the Social Security
              A-06-09-19128                                                                          12/8/2010
                                Administration's Databases

                                Office of Disability Adjudication and Review Hearing Request
              A-07-10-20171                                                                         12/14/2010
                                Dismissals

                                Management Advisory Report: Single Audit of the State of
              A-77-11-00006                                                                         12/14/2010
                                Illinois for the Fiscal Year Ended June 30, 2009

                                Management Advisory Report: Single Audit of the State of
              A-77-11-00007                                                                         12/20/2010
                                Arizona for the Fiscal Year Ended June 30, 2009

                                Management Advisory Report: Single Audit of the State of
              A-77-11-00008                                                                         12/20/2010
                                Ohio for the Fiscal Year Ended June 30, 2009

              A-15-10-11073     Performance Indicator Audit: Electronic Service Delivery            12/27/2010

                                The Social Security Administration's Reporting of High-Dollar
              A-15-10-21142                                                                         12/30/2010
                                Overpayments Under Executive Order 13520




April 1, 2011 - September 30, 2011                                                                                       43
Semiannual Report to Congress




                                  Reports with Non-Monetary Findings
                                  October 1, 2010 – September 30, 2011
          Audit Number                                  Report                                  Issue Date
                            The Social Security Administration’s Electronic Claims Analysis
           A-01-10-11010                                                                         1/5/2011
                            Tool

           A-15-10-11074    Performance Indicator Audit: Disability Process                      1/24/2011

           A-06-10-20144    Supplemental Security Income Double Check Negotiations               1/28/2011

                            The Social Security Administration's New Data Center Site
           A-14-10-20184                                                                         2/10/2011
                            Alternatives (Limited Distribution)

                            Impact of Alien Nonpayment Provisions on Field Offices
           A-08-10-20140                                                                         2/15/2011
                            Along the Mexican Border

                            The Social Security Administration's Month of Election Policy
           A-08-10-20183                                                                         2/15/2011
                            for Retirement Benefits

                            An Individual Representative Payee for the Social Security
           A-15-10-11077                                                                         2/23/2011
                            Administration in Grand Rapids, Michigan

                            Congressional Response Report: Office of Disability
           A-12-10-20169                                                                         2/25/2011
                            Adjudication and Review's Scheduling Procedures for Hearings


           A-15-10-11075    Performance Indicator Audit: Hearings and Appeals Backlog            2/25/2011


                            The Social Security Administration's Guard Service Contract for
           A-15-10-11089                                                                         2/28/2011
                            Headquarters, the National Computer Center, and Security West

                            Consultative Examinations at the Indiana Disability
           A-05-10-21061                                                                         3/1/2011
                            Determination Bureau

                            Congressional Response Report: Applicant Experiences with
           A-07-10-20167                                                                         3/7/2011
                            Retirement Insurance Benefit Internet Claim Applications

                            The Social Security Administration’s Response to State
           A-01-11-11116                                                                         3/22/2011
                            Furloughs Impacting its Disability Programs

                            Annual Representative Payee Accounting Report
           A-06-10-11069                                                                         3/28/2011
                            Non-responders




44                                                                                       April 1, 2011 - September 30, 2011
                                                                                                Semiannual Report to Congress




                                     Reports with Non-Monetary Findings
                                     October 1, 2010 – September 30, 2011
            Audit Number                                   Report                                    Issue Date

                               Follow-up: Personally Identifiable Information Made Available
             A-06-10-20173                                                                           3/31/2011
                               to the Public Via the Death Master File (Limited Distribution)

             A-08-11-11121     The Social Security Number Application Process                        4/15/2011

                               Performance Indicator Audit: The Social Security
             A-02-10-11076                                                                           4/18/2011
                               Administration's Fiscal Year 2010 Performance Indicators

                               Supplemental Security Income Recipients with Wages in the
             A-03-10-11038                                                                           4/18/2011
                               Earnings Suspense File

             A-14-10-20122     The Social Security Administration's Time Allocation System           4/18/2011

                               Cost Analysis System Background Report and Viability
             A-15-10-20149                                                                           4/20/2011
                               Assessment

                               Congressional Response Report: Internet Claim Applications
             A-07-10-20165                                                                           4/22/2011
                               for Retirement Insurance Benefits

                               The Handling and Destruction of Social Security Number
             A-15-10-20137                                                                           4/26/2011
                               Cards Deemed as Spoilage (Limited Distribution)

                               Congressional Response Report: Internet Claim Applications
             A-07-10-20166                                                                           5/4/2011
                               for Disability Insurance Benefits

                               Office of Disability Adjudication and Review Cost Allocation
             A-15-10-20150                                                                           5/5/2011
                               Process

                               Management Advisory Report: Single Audit of the State of
             A-77-11-00011                                                                           5/10/2011
                               New York for the Fiscal Year Ended March 31, 2009

                               The Program of Requirements for the Social Security
             A-14-11-11144                                                                           5/13/2011
                               Administration's New Data Center (Limited Distribution)

             A-06-10-20136     Follow-up: Social Security Number Cards Issued After Death            5/20/2011

                               Failure to Cooperate Denials and Initial Claims Backlog at the
             A-09-10-21093                                                                           5/25/2011
                               California Disability Determination Services




April 1, 2011 - September 30, 2011                                                                                        45
Semiannual Report to Congress




                                      Reports with Non-Monetary Findings
                                      October 1, 2010 – September 30, 2011
            Audit Number                                    Report                                 Issue Date

            A-01-10-10168       Overall Disability Claim Times for 2009                            5/31/2011

                                The Social Security Administration’s Strategy for Reducing the
            A-07-10-10162                                                                           6/8/2011
                                Initial Claims Backlog

                                Aged Beneficiaries Whose Benefits Have Been Suspended for
            A-09-09-29117                                                                          6/17/2011
                                Address or Whereabouts Unknown

                                Congressional Response Report: Applicant Experiences with
            A-07-10-20176                                                                          6/28/2011
                                Disability Insurance Benefit Internet Claim Applications

                                Congressional Response Report: The Office of Disability
            A-12-11-21192       Adjudication and Review’s Hearings Backlog and Processing          6/29/2011
                                Times

                                Management Advisory Report: Single Audit of the
            A-77-11-00013       Commonwealth of Puerto Rico Department of the Family for            7/6/2011
                                the Fiscal Year Ended June 30, 2009

            A-01-11-21193       The Effects of the Electronic Claims Analysis Tool                  7/7/2011

                                The Social Security Administration's Managing and Monitoring
            A-14-10-20106                                                                          7/13/2011
                                of Local Profiles

                                Congressional Response Report: The Social Security
            A-07-11-01125                                                                          7/29/2011
                                Administration's Customer Service Delivery Plan

            A-12-10-11018       Senior Attorney Adjudicator Program                                7/29/2011

            A-05-09-19101       Representative Video Project                                        8/4/2011

                                South Dakota Disability Determination Services' Administrative
            A-06-11-11153                                                                           8/4/2011
                                Cost Reporting

            A-06-11-11136       Collection of Civil Monetary Penalties                             8/12/2011

                                Congressional Response Report: Electronic Services for
            A-05-11-01124                                                                          8/22/2011
                                Claimant Representatives




46                                                                                        April 1, 2011 - September 30, 2011
                                                                                               Semiannual Report to Congress




                                     Reports with Non-Monetary Findings
                                     October 1, 2010 – September 30, 2011
            Audit Number                                   Report                                   Issue Date
                               Follow-up: Survivor Benefits Paid in Instances When the Social
             A-06-10-20135     Security Administration Removed the Death Entry from a               9/1/2011
                               Primary Wage Earner's Record

                               The Social Security Administration's Simplified Disability
             A-14-11-21137                                                                          9/6/2011
                               Internet Application

             A-08-11-11114     H-1B Workers' Use of Social Security Numbers                         9/7/2011

                               Congressional Response Report: Social Security Administration
             A-04-11-01118                                                                          9/9/2011
                               Field Office User Fees

                               The Social Security Administration's Use of the Limitation on
             A-15-11-21170                                                                          9/14/2011
                               Administrative Expenses Appropriation

                               Administrative Costs Claimed by the Ohio Division of
             A-05-09-19127                                                                          9/16/2011
                               Disability Determination

             A-13-11-01141     Employee Retirement Income Security Act Related Notices              9/26/2011

                               The Social Security Administration's Plan to Reduce Improper
             A-15-11-01126     Payments Under Executive Order 13520, as Reported in March           9/28/2011
                               2011




April 1, 2011 - September 30, 2011                                                                                       47
Semiannual Report to Congress




                                              Reports with Questioned Costs
                                           October 1, 2010 – September 30, 2011
          Audit Number      Issue Date                              Report                            Dollar Amount

                                              Federal Employees Receiving Both Federal
           A-15-09-19008    10/14/2010        Employees' Compensation Act and Disability                    $43,991,444
                                              Insurance Payments

                                              Dedicated Account Underpayments Payable to
           A-09-09-29110    11/10/2010                                                                      $34,976,646
                                              Children

                                              Indirect Costs Claimed by the California Disability
           A-09-10-11079    11/16/2010                                                                       $8,128,431
                                              Determination Services

                                              Claimant Representative Fees Paid Through
           A-04-10-11026    11/24/2010        the Social Security Administration's One-Time                  $7,482,710
                                              Payment System

                                              Management Advisory Report: Single Audit of the
           A-77-11-00004    11/24/2010        Commonwealth of Massachusetts for the Fiscal                      $12,772
                                              Year Ended June 30, 2009

                                              Social Security Administration Employees' Use of
           A-02-09-29089        12/8/2010                                                                         $9,187
                                              Discounted Airfares

                                              The Social Security Administration’s Voice over
           A-14-09-19045    12/28/2010                                                                       $1,060,000
                                              Internet Protocol Contract

                                              Recovery of Title II Payments Issued After
           A-09-10-11037        1/4/2011                                                                    $18,816,960
                                              Beneficiaries’ Deaths

                                              Economic Recovery Payments - Catch-Up
           A-09-10-11099        1/10/2011                                                                      $153,750
                                              Payments

           A-01-10-20115        2/23/2011     Underpaid Disabled Widows                                     $14,254,260

                                              The Developmental Disabilities Association of
                                              New Jersey, Incorporated - An Organizational
           A-02-10-41084        2/23/2011                                                                       $60,063
                                              Representative Payee for the Social Security
                                              Administration

                                              Accuracy of Fiscal Year 2009 Title II Disability
           A-04-10-11014        2/23/2011     Insurance Benefit Payments Involving Workers'                  $7,890,278
                                              Compensation Offsets




48                                                                                         April 1, 2011 - September 30, 2011
                                                                                              Semiannual Report to Congress




                                         Reports with Questioned Costs
                                      October 1, 2010 – September 30, 2011
       Audit Number       Issue Date                           Report                            Dollar Amount

                                         Management Advisory Report: Interim Audit of
       A-77-11-00009      2/23/2011                                                                       $197,000
                                         the State of California for Fiscal Year 2010

                                         Implementation of Phase I of the Martinez
       A-01-10-10160      2/25/2011                                                                    $15,178,263
                                         Settlement Agreement

                                         An Individual Representative Payee for the Social
       A-15-09-19062       3/3/2011                                                                        $96,971
                                         Security Administration in Michigan

                                         Gateway Representative Payee Program, an
       A-08-10-11048       3/7/2011      Organizational Representative Payee for the Social                 $5,275
                                         Security Administration

                                         Emerge, Incorporated, an Organizational
       A-13-10-21087      3/31/2011      Representative Payee for the Social Security                      $31,347
                                         Administration

                                         Management Advisory Report: Single Audit of
       A-77-11-00010      4/26/2011      the Commonwealth of Pennsylvania for the Fiscal                    $9,722
                                         Year Ended June 30, 2009

                                         Title II Beneficiaries Whose Benefits Have Been
       A-09-10-10117      4/28/2011      Suspended and Who Have a Date of Death on the                 $24,124,659
                                         Numident

                                         Administrative Costs Claimed by the South
       A-04-10-10178       5/4/2011                                                                       $986,276
                                         Carolina Disability Determination Services

                                         Management Advisory Report: Single Audit of the
       A-77-11-00012      6/14/2011      Commonwealth of Puerto Rico Department of                      $1,277,778
                                         the Family for the Fiscal Year Ended June 30, 2008

                                         Disability Insurance and Supplemental Security
       A-01-10-10177      6/20/2011                                                                     $8,921,121
                                         Income Claims Allowed But Not Paid

                                         Administrative Costs Claimed by the Nevada
       A-09-10-11090      6/27/2011                                                                       $548,978
                                         Disability Determination Services




April 1, 2011 - September 30, 2011                                                                                      49
Semiannual Report to Congress




                                              Reports with Questioned Costs
                                           October 1, 2010 – September 30, 2011
           Audit Number         Issue Date                         Report                            Dollar Amount

                                              Safe Harbor, a Fee-for-Service Representative
            A-07-11-11141       7/5/2011                                                                       $42,830
                                              Payee for the Social Security Administration

                                              Follow-up: Supplemental Security Income
            A-08-10-10138       7/11/2011     Overpayments to Recipients in Title XIX                       $3,479,798
                                              Institutions

            A-03-10-11054       8/11/2011     Work Incentive Planning and Assistance Project                   $40,985

                                              Contract with Dell Marketing, L.P., for Microsoft
            A-06-10-10175       9/15/2011                                                                   $3,190,616
                                              Licensing and Maintenance

                                              Follow-up: Childhood Continuing Disability
            A-01-11-11118       9/23/2011                                                               $1,392,636,334
                                              Reviews and Age 18 Redeterminations


             Total		                                                                                    $1,587,604,454




50                                                                                       April 1, 2011 - September 30, 2011
                                                                                          Semiannual Report to Congress




                                     Reports with Funds Put to Better Use
                                 October 1, 2010 – September 30, 2011

     Audit Number        Issue Date                         Report                        Dollar Amount

                                         Accuracy of Fiscal Year 2009 Title II
      A-04-10-11014      2/23/2011       Disability Insurance Benefit Payments                   $2,075,196
                                         Involving Workers' Compensation Offsets

                                         Improperly Titled Bank Accounts for
      A-01-09-19055      3/31/2011                                                              $25,591,967
                                         Beneficiaries with Representative Payees

                                         Use of Video Hearings to Reduce the Hearing
      A-05-08-18070      4/22/2011                                                               $1,900,000
                                         Case Backlog

                                         Debt Collection Activities in the Supplemental
      A-07-10-20139      4/22/2011                                                            $199,647,761
                                         Security Income Program

                                         Minor Children Receiving Benefits Without a
      A-13-10-10104       5/4/2011                                                              $66,220,388
                                         Representative Payee

                                         Supplemental Security Income Recipients with
      A-02-09-29025       6/1/2011                                                            $356,428,515
                                         Unreported Real Property

                                         Administrative Costs Claimed by the Nevada
      A-09-10-11090      6/27/2011                                                               $1,976,890
                                         Disability Determination Services

                                         Follow-up: Supplemental Security Income
      A-08-10-10138      7/11/2011       Overpayments to Recipients in Title XIX                 $3,479,798
                                         Institutions

                                         Follow-up: Childhood Continuing Disability
      A-01-11-11118      9/23/2011                                                            $467,864,766
                                         Reviews and Age 18 Redeterminations


                                          TOTAL                                              $1,125,185,281




April 1, 2011 - September 30, 2011                                                                                  51
Semiannual Report to Congress




     Appendix C: Reporting Requirements Under the
     Omnibus Consolidated Appropriations Act of FY 1997
     To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we
     are providing requisite data for the first half of FY 2009 from the Offices of Investigations and Audit in
     this report.
     Office of Investigations
     We are reporting over $45 million in SSA funds as a result of our investigative activities in this reporting
     period (4/11/11-9/30/11). These funds are broken down in the table below.

                                                Investigative Activities

                           1st Quarter     2nd Quarter    3rd Quarter    4th Quarter
                                                                                                          Total
                        10/1/10-12/31/10 1/1/11-3/31/11 4/1/11-6/30/11 7/1/11-9/30/11

       Court Ordered
                             $5,814,165          $6,057,189         $7,371,154        $9,285,590       $32,101,114
        Restitution


         Recoveries          $5,683,723          $5,159,791        $10,904,775       $15,346,406       $45,989,019


            Fines               $468,642         $1,035,035          $260,704          $519,454         $1,176,345



        Settlements/
                                $433,560          $289,179          $1,866,544         $164,227         $2,714,922
         Judgments



          TOTAL             $12,400,090         $12,541,194        $20,403,177       $25,315,677       $81,981,400



     Office of Audit
     SSA management has informed us that it has completed implementing recommendations from 6 audit
     reports during this time period valued at over $159 million.
     USE OF VIDEO HEARINGS TO REDUCE THE HEARING CASE BACKLOG (A-05-08-18070, 4/22/2011)
     We recommended that SSA periodically evaluate video hearing equipment requirements at each location against
     historical and future expected usage. Such perodic evaluations should be conducted before any new equipment is
     ordered. The implemented value of this recommendation is $1,900,000.




52                                                                                     April 1, 2011 - September 30, 2011
                                                                                                Semiannual Report to Congress




             IMPROPERLY TITLED BANK ACCOUNTS FOR BENEFICIARIES WITH REPRESENTATIVE
             PAYEES (A-01-09-19055, 3/31/2011)
             We recommended that SSA issue a reminder on proper bank account titling to staff who appoint
             representative payees and who assist representative payees to establish/change direct deposit
             information. The implemented value of this recommendation is $25,591,967.
             ACCURACY OF FISCAL YEAR 2009 TITLE II DISABILITY INSURANCE BENEFIT
             PAYMENTS INVOLVING WORKERS’ COMPENSATION OFFSETS (A-04-10-11014,
             2/23/2011)
             We recommended that SSA implement a cost-effective, risk-based approach to identify error-
             prone workers’ compensation (WC) offset cases. For these cases, SSA should require idependent
             review before the offset decision is effectuated. The review should be conducted by a supervisor
             or experienced peer and ensure that acceptable WC data were obtained, correctly interpreted and
             recorded, and maintained in SSA’s electronic records retention systems. The implemented value of
             this recommendation is $2,075,196.
             INDIVIDUAL REPRESENTATIVE PAYEES SERVING MULTIPLE BENEFICIARIES (A-
             13-08-28089, 7/31/2009)
             We recommended that SSA review the concerns reported to OIG staff regarding the specific payees
             reviewed and take appropriate action. The implemented value of this recommendation is $4,850.
             PAYMENTS TO INDIVIDUALS WHOSE NUMIDENT RECORD CONTAINS A DEATH ENTRY
              (A-06-08-18095, 6/26/2009)
             We recommended that SSA terminate benefits, recover improper payments, and refer potential
             instances of fraud to the Office of Investigations for all beneficiaries determined to be deceased
             during living status verifications. The implemented value of this recommendation is $6,936,540.
             THE SOCIAL SECURITY ADMINISTRATION’S USE OF ADMINISTRATIVE SANCTIONS
             IN THE OLD-AGE, SURVIVORS AND DISABILITY INSURANCE PROGRAM (A-07-07-
             17052, 9/19/2008)
             We recommended that SSA evaluate the current administrative sanctions process and implement
             necessary changes to ensure that all potential administrative sanctions are identified and proactively
             considered. In doing so, SSA should consider implementing a risk-based approach that focuses
             on santionable actions that result in significant overpayments. The implemented value of this
             recommendation is $123,458,884.




April 1, 2011 - September 30, 2011                                                                                        53
Semiannual Report to Congress




         Appendix D: Significant Management Decisions With
         Which the Inspector General Disagrees
         PERFORMANCE INDICATOR AUDIT: THE SOCIAL SECURITY ADMINISTRATION’S
         FISCAL YEAR 2010 PERFORMANCE INDICATORS (A-02-10-11076, 4/18/2011)
         Results of Review: SSA continues to make progress in meeting Government Performance and Results
         Act (GPRA) objectives. While SSA has improved the overall quality of its Performance Indicators
         (PI), further refinements would create more results-based indicators.
         Based on the results of audit procedures performed in our contractor’s assessment of SSA’s FY
         2010 PIs, the contractor noted the following:
         •	       Over half of SSA’s current PIs did not measure the Agency’s progress on achieving its
         strategic goals and objectives. Many of these measures were also identified as output-based indicators
         rather than being outcome-based indicators. Outcome-based indicators are more effective in
         measuring an agency’s progress in achieving its strategic goals and objectives than output-based
         indicators.
         •	       A number of the performance targets were based on the amount appropriated for the
         activity rather than focusing on actual performance. As a result, users of the Performance and
         Accountability Report (PAR) do not have a complete understanding of SSA’s actual performance.
         •	        While SSA had defined some very specific long-term outcomes in the Agency’s strategic plan,
         it is difficult for the users of the PAR to understand SSA’s progress in achieving those outcomes
         because performance targets are not tied to long-term outcomes.
         •	      Some PIs do not support SSA’s key programs.
         Accordingly, our contractor recommended SSA consider 26 recommendations that relate to the
         following:
         •	      Developing more outcome-based PIs.
         •	     Developing performance targets based on SSA’s long-term outcomes instead of annual
         budgets.
         •	      Eliminating PIs that do not support SSA’s key programs.
         Recommendation: Consider creating a PI to track the number of disability hearings processed as
         a percentage of disability hearings requested during the FY. Implementation of this PI would help
         the readers of the PAR understand how process modifications and improvements have impacted
         SSA’s ability to process disability hearing requests received during the current FY.
         Agency Response: SSA disagreed with the recommendation, stating the current PI is a valid output
         measure. Each year, SSA continues to increase its capacity to hear and decide cases. SSA discussed
         this in the FY 2010 PAR, provided historical perspective, and discussed the improvements the
         Agency is making to its processes.




54                                                                                     April 1, 2011 - September 30, 2011
                                                                                          Semiannual Report to Congress




              Contractor Response: We agree that this is a valid output measure. Our recommendation is
              focused on creating an outcome-based PI to further enhance SSA’s reporting under GPRA
              and the GPRA Modernization Act and better focus on results.
              Recommendation: Consider creating a PI to track the number of disability hearing requests
              pending as compared to the “long-term outcome” associated with this PI to “. . . reduce the
              number of pending hearings to 466,000 by FY 2013.” Implementation of this PI would help
              demonstrate the progress SSA has made toward achieving its desired long-term outcome.
              Agency Response: SSA disagreed with the recommendation. In the PAR, SSA states that
              eliminating the hearings backlog remains the Agency’s top priority. This PI supports SSA’s
              long-term goal of reducing its pending hearings to 466,000. SSA determined that it is the
              pending level necessary to ensure a sufficient “pipeline” of cases to maximize the efficiency
              of the Agency’s hearings process.
              Contractor Response: Achieving a number of hearings tied to the budget helps facilitate the
              goal of reducing the hearing backlog but is an output and not an outcome. The outcome is
              the progress SSA has made to reduce the backlog to meet its FY 2013 goal of having 466,000
              pending disability cases and not how many hearings were completed in the current year.
              Recommendation: Consider establishing long-term outcomes for the disability appeals
              process and present the outcomes in the Annual Performance Plan (APP). Base the target
              for the indicator on the long-term outcome.
              Agency Response: SSA disagreed with the recommendation. SSA establishes long-term
              outcomes in the Agency’s Strategic Plan (ASP), not the Annual Performance Plan (APP).
              As stated in the FY 2010 PAR, SSA will continue to focus on eliminating the oldest cases
              pending review by the Appeals Council.
              Contractor Response: The OIG modified the final report to make clear that we are talking
              about presenting the outcomes in the APP and establishing the long-term goals that drive
              the outcomes in the ASP.
              Recommendation: Consider defining the optimum processing time for Appeals Council
              requests for review and track the number of pending requests against that target.
              Implementation of this recommendation would help the readers of the PAR determine
              how SSA is managing its workload and preventing the recurrence of a backlog.
              Agency Response: SSA disagreed with the recommendation. In the FY 2010 PAR, SSA
              reported on the record number of hearings requests processed. This led to a large influx
              of Appeals Council requests. This and other factors such as staffing constraints make it
              difficult to define an optimum processing time. The existing “target average processing
              time” is a sound measure, and the PAR contains sufficient information for the reader.
              Contractor Response: We continue to believe that SSA should consider further refining
              this PI to be more outcome-oriented. Again, the fact that a record number of hearings
              occurred is an important achievement that we recognize in our report but, as SSA points




April 1, 2011 - September 30, 2011                                                                                  55
Semiannual Report to Congress




         out in its comment on this recommendation, “. . . this led to a large influx of Appeals Council
         requests.” This is why progress against reducing the backlog and not how many cases were heard
         in a given year should be the central focus of the PI.
         Recommendation: Consider creating a PI to track the number of initial disability claims processed
         as a percentage of initial disability claims received. The implementation of this PI would help the
         readers of the PAR determine how SSA is managing its current initial disability claim workload.
         Agency Response: SSA disagreed with the recommendation. This PI is a valid output measure.
         SSA reports data on claims received and claims pending in the PAR and provides discussion to
         keep the reader informed.
         Contractor Response: This PI focuses on outputs against the budget similar to our comments in
         Note 2. We continue to believe the focus should be outcome-oriented whenever possible.
         Recommendation: Consider creating a PI to address the accuracy of case processing, which relates
         directly to the overall strategic goal of improving the speed and quality of the disability process. The
         PI could answer the question, “Are initial disability determinations not only completed more timely,
         but has the quality of the determinations improved as a result?” The public wants not only faster
         disability decisions, but the same or better quality of the decisions themselves. Implementation of
         this PI would help readers of the PAR determine how SSA is improving the quality of the services
         provided by its disability determination process.
         Agency Response: SSA disagreed with the recommendation. This PI provides the reader with a
         good indicator of how long it takes the Agency to render a decision for initial disability claims.
         Longer processing times do not necessarily equate to increased complexity. The Agency delays
         case processing for many reasons including a claimant’s failure to cooperate; the need for additional
         medical evidence; or need for a consultative examination. From an accuracy standpoint, there is no
         direct correlation between longer and shorter processing times. Creating a PI as the OIG suggests
         might confuse readers of the PAR.
         Contractor Response: We noted the need for an additional PI focused on quality that ties to the
         overall strategic goal of improving speed and quality of the disability process. We revised our
         recommendation to better focus on quality measures and to make clear that quality and timeliness
         are two separate but related measures.
         Recommendation: Consider creating a PI to measure the efficiency improvements resulting from
         the online filing of disability claims, such as reduction of SSA resources (time, money, human
         capital, etc.). Implementation of this PI would help readers of the PAR determine whether SSA
         is using its resources efficiently.
         Agency Response: SSA disagreed with the recommendation. This PI relates to the overall strategic
         goal of “Improve the Speed and Quality of Our Disability Process.” It is an outcome based indicator
         (as the OIG notes in its report) and provides the reader with direct information about SSA’s services.
         The OIG’s suggestion that a different measure would help readers of the PAR assess whether SSA
         is using the Agency’s resources effectively is outside the scope of the strategic goal.




56                                                                                      April 1, 2011 - September 30, 2011
                                                                                             Semiannual Report to Congress




           Contractor Response: The ability to file a disability claim online is an important tool in promoting
           greater efficiency and effectiveness of the disability determination process. At the same time,
           the target percentage of initial disability claims filed online is an output. The outcome would be
           whether SSA has been able to “improve the speed and quality of its disability process,” as stated
           in SSA’s comments. Our recommendation is focused on adding an outcome-oriented measure
           related to whether SSA is saving resources as a result of online filing of disability claims. Given the
           large backlog of disability claims and the impact of long timeframes for disability determinations
           on the public, efficiency of SSA’s process is important. We view the percentage of online claims
           being filed as a subset of the broader goal related to speed and quality and continue to believe that
           SSA should consider adding a PI that measures the impact of greater online filing. We revised
           our recommendation to make clear the focus on efficiency.
           Recommendation: Consider creating a PI to track the number of initial disability claims pending
           as a percentage of initial disability claims received. Implementation of this PI would correlate to
           the Agency’s strategic goal of improving the speed of the disability process.
           Agency Response: SSA disagreed with the recommendation. Many non-performance related
           factors affect the number of initial disability claims pending—filing rates, staffing levels, the
           time it takes to train new employees, and changes in business processes. There are also other
           contributing factors such as when States unnecessarily furlough Disability Determination Service
           employees. We discuss this in the PAR and provide additional data on claims pending to keep
           the reader informed.
           Contractor Response: We agree that this is a valid output measure. Our recommendation is
           focused on creating an outcome-based PI to further enhance SSA’s reporting under GPRA and
           the GPRA Modernization Act of 2010 and better focus on results.
           Recommendation: Consider creating a PI to track customer satisfaction with telephone service
           and tie this measure to the PI on how quickly calls are answered (3.4a).
           Agency Response: SSA disagreed with the recommendation. This is an outcome-based PI and
           a sound measure of how quickly the Agengy answers 800 number calls. SSA tracks customer
           satisfaction for all modes of service, including telephone service (3.4a).
           Contractor Response: We clarified our recommendation to call for SSA to link performance
           information on the quality of the telephone service (3.4a) with what is being measured on the
           speed of answering the telephone (3.3a).
           Recommendation: Consider developing a strategic objective that aligns with measuring SSA’s
           overall services, not just services received in field offices.
           Agency Response: SSA disagreed with the recommendation. This is an outcome-based PI and
           it measures “overall services.” This includes field offices, hearings offices, 800 number services,
           and online services.
           Contractor Response: Our understanding is that SSA has been measuring the results of overall
           services provided through the field offices. We are calling for such measurement to include
           services that are not provided in the field offices.




April 1, 2011 - September 30, 2011                                                                                     57
Semiannual Report to Congress




         Recommendation: Consider eliminating PI 4.1a, “Complete the Budgeted Number of Supplement
         Security Income Non-Disability Redeterminations” and PI 4.1b, “Process the Budgeted Number
         of Continuing Disability Reviews,” as key PIs in its APP. These PIs only measure whether SSA
         performed redeterminations or continuing disability reviews rather than focusing on the outcome
         of those efforts. We noted that the outcomes of those efforts are reflected in PI 4.1c, “Percent
         of Supplemental Income payments free of overpayment and underpayments error,” and PI 4.1d,
         “Percent of Old-Age, Survivors, and Disability Insurance payments free of overpayment and
         underpayment error.”
         Agency Response: SSA disagreed with the recommendation. The Administration has placed a
         priority on limiting improper payments, and SSA’s actions under PI 4.1a and PI 4.1b are vital to that
         effort. The PIs are outcome-based and relate directly to requirements of the Improper Payments
         Elimination and Recovery Act and Executive Order 13520, Reducing Improper Payments.
         Contractor Response: These two PIs are output-oriented and tied to the budget, whereas two other
         related PIs are outcome-oriented. If SSA believes it should keep the two PIs we recommended
         be eliminated because of the increasing high priority the Administration and the Congress have
         placed on reducing improper payments, we recommend that it revise the PIs to instead focus on
         Supplemental Security Income Non-Disability redeterminations and Continuing Disability reviews
         as a percentage of the potential population of such redeterminations/reviews, as opposed to
         whether they met the budgeted number. We have modified our recommendation to recognize this
         second option.
         THE SOCIAL SECURITY ADMINISTRATION’S STRATEGY FOR REDUCING THE
         INITIAL CLAIMS BACKLOG (A-07-10-10162, 6/8/2011)
         Result of Review: We evaluated SSA’s ability to reduce the initial disability claims pending level
         to 525,000 by FY 2014. Based on SSA’s projection for initial claims receipts, work years, and
         productivity, it appears that it will meet the goal by FY 2014, if not sooner.
         SSA’s ability to reach its goal is dependent upon SSA receiving funding that will enable it to achieve
         projections for work years and productivity. However, in FY 2011, funding is already a concern.
         With a FY 2011 budget nearly $1 billion below the amount requested, Agency components and
         State disability determination services are under a full hiring freeze. Without the ability to replace
         employees lost through attrition, SSA will not be able to maintain the projected level of work years
         through 2014. Therefore, SSA will be in jeopardy of not achieving its goal.
         We also found that the Strategy is not transparent regarding how SSA will balance its resources
         between initial claims, reconsiderations, and CDR workloads, and how the CDR and reconsideration
         workloads will be affected by SSA’s actions to achieve its goal for initial disability claims pending.
         Recommendation: As the Strategy to Address Increasing Initial Disability Claims Receipts is
         reassessed each year, be transparent as to how workload decisions are developed, including how
         budgetary constraints affect initial claim, continuing disability review, and reconsideration workloads.
         Agency Response: SSA disagreed with the recommendation. SSA disagreed with the conclusion
         that the Agency is not transparent about how it developed workload decisions. As noted above,




58                                                                                      April 1, 2011 - September 30, 2011
                                                                                          Semiannual Report to Congress




           numerous published ocuments provide varying degrees of detail about how the Agency makes
           workload decisions.
           OIG Response: We are aware that SSA publishes various reports and documents related to its
           program integrity activities. We also recognize that SSA’s Strategy briefly acknowledges that any
           additional staff hired will balance time between processing initial disability claims and CDRs.
           However, given the current budget and hiring situation, we continue to have concerns with how
           staff will balance time between the initial claim, CDR, and reconsideration workloads and how
           current and future budgetary constraints will affect these workloads. Therefore, we continue to
           support our recommendation that SSA outline this information in its annual reassessment of
           the Strategy.
           DEBT COLLECTION ACTIVITIES IN THE SUPPLEMENTAL SECURITY INCOME
           PROGRAM (A-07-10-20139, 4/22/2011)
           Results of Review: Our review focused on SSA’s debt collection arrangements in the SSI program.
           Since FY 2002, the percent of outstanding SSI debt in a collection arrangement has decreased.
           Specifically, between FYs 2002 and 2009, SSI debt in a collection arrangement decreased by more
           than 5 percent. SSA stated resource constraints in the SSI program have caused the Agency to
           shift focus from debt collection activities and other program integrity workloads to maintain
           front-line services.
           We estimated, based on historical SSI collection rates, that during FYs 2008 through 2011,
           that SSA could have recovered an additional $200 million of SSI debt. This could have been
           accomplished had SSA placed an additional $441 million of outstanding SSI debt into collection
           arrangements at the FY 2002 level during FYs 2008 through 2010.
           Recommendation: Identify a reasonable goal for the level of SSI debt that should be in a
           collection arrangement each year and dedicate the necessary resources to processing the debt
           collection workload to achieve the goal
           Agency Response: SSA disagreed with the recommendation. SSA stated it is directing its resources
           to more cost-effective program integrity work. In addition, SSA believes SSI payment accuracy
           will continue to improve, thereby reducing the amount of SSI debt needing to be recouped. With
           less debt to recoup and the increased use of more efficient methods for preventing, detecting,
           and recouping SSI overpayments, SSA stated it will not establish a goal for SSI debt collection
           arrangements.
           OIG Response: We applaud SSA for implementing new methods to prevent, detect, and recoup
           SSI overpayments. We also understand that SSA must balance its resources between service
           delivery and program integrity. Without a goal for the level of debt in a collection arrangement,
           Congress and other stakeholders lack necessary information to assess whether sufficient resources
           are allocated to debt collection activities. Therefore, we remain committed to our recommendation.
           THE SOCIAL SECURITY ADMINISTRATION’S USE OF THE LIMITATION ON
           ADMINISTRATIVE EXPENSES APPROPRIATION (A-15-11-21170, 9/14/11)




April 1, 2011 - September 30, 2011                                                                                  59
Semiannual Report to Congress




         Results of Review: We reviewed SSA’s unobligated Limitation on Administrative Expenses (LAE)
         account balances at the end of FYs 2005 through 2010 and determined that none of the funds were
         needed to cover upward adjustments of prior recorded obligations or to provide funding for any
         unrecorded obligations at year-end. We found that recoveries of prior-year obligations exceeded
         the total upward adjustments and significantly increased the total unobligated balance available for
         transfer to the no-year appropriation. Therefore, the Agency had the opportunity to use more of
         its annual LAE funds to reduce the disability backlog and invest in program integrity workloads.
         Recommendation: Review existing policy and procedures and make changes as needed to decrease
         the amount of unobligated LAE funds remaining at the end of each FY to cover potential upward
         adjustments in obligations for future years.
         Agency Response: SSA disagreed with the recommendation. SSA stated it manages its appropriations
         in a sensible, robust manner, which allows the Agency to meet its financial obligations and have
         sufficient funds in prior year accounts to cover legitimate upward adjustments to contracts or other
         spending actions that may be chargeable to those years.
         OIG Response: We are aware that SSA typically lapses 1 percent of LAE funding each year. We
         recognize that SSA is transferring its unobligated funds from prior year accounts to the no-year LAE
         appropriation in accordance with the language provided in the public law. However, we continue to
         believe that earlier in the budget process, SSA can do an even better job than it is doing to provide
         the most cost-effective use of resources for the Agency’s growing workloads, reduce the disability
         backlog, and invest in program integrity workloads.




60                                                                                    April 1, 2011 - September 30, 2011
                                                                                                     Semiannual Report to Congress




             Appendix E: Collections from Investigations and
             Audits
             The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
             additional information concerning actual cumulative collections and offsets achieved as a
             result of OIG activities each semiannual period.


             Office of Investigations

                                Total Restitution Reported by DOJ as Collected for SSA

                                            Total Number of
                                                                         Court Ordered
                                          Individuals Assigned                                     Total Restitution
                          FY                                           Restitution for This
                                             Court Ordered                                         Collected by DOJ
                                                                              Period
                                               Restitution
                         2009                        603                     $24,126,913               See Footnote1

                         2010                        447                     $20,670,938               See Footnote1

                         2011                        550                     $26,408,142               See Footnote1

                      TOTAL                         1,600                    $71,205,993               See Footnote1
             1
              DOJ migrated collection data to a new computer system and is working to generate reports that will provide
             us with this information.


                                 Recovery Actions Based on OI Investigations

                                     Total Number of Recovery
                    FY                                                          Amount for Recovery
                                          Actions Initiated

                   2009                           954                                            $23,376,566

                   2010                          1,128                                           $36,431,093

                   2011                          1,310                                           $45,989,019

                 TOTAL                           3,392                                          $105,796,678




April 1, 2011 - September 30, 2011                                                                                             61
Semiannual Report to Congress




        Office of Audit
        The following chart summarizes SSA’s responses to our recommendations for the recovery or
        redirection of questioned and unsupported costs. This information is prepared in coordination
        with SSA’s management officials and was current as of September 30, 2011.


                                     SSA’s Responses to OIG’s Recommendations
                              Recovery or Redirection of Questioned and Unsupported Costs1
                  Reports with     Questioned/
                                                      Management       Amount Collected Amount Written-
           FY     Questioned       Unsupported                                                                     Balance2
                                                      Concurrence      or to be Recovered Off/Adjustments
                     Costs            Costs

           2009        28         $3,124,063,484      $1,664,149,576     $1,466,789,938       $1,451,103,302       $206,170,244


           2010        21         $1,416,191,419      $1,383,853,158     $1,354,912,520          $5,146,091         $56,132,808


           2011        28         $1,587,604,454      $1,582,808,695        $30,689,466         $23,494,130       $1,533,420,858


         TOTAL         77         $6,127,859,357      $4,630,811,429     $2,852,391,924      $1,479,743,523       $1,795,723,910

           1
            The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the
           OIG.
           2
            Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/
           Adjustments




62                                                                                             April 1, 2011 - September 30, 2011
                                                                                          Semiannual Report to Congress




            APPENDIX F: Significant Monetary R ecommendations
            From Prior FYs for Which Corrective Actions Have Not
            Been Completed
            BENEFITS PAYABLE TO CHILD BENEFICIARIES WHO NO LONGER NEED
            REPRESENTATIVE PAYEES (A-09-09-29116, 8/20/2010)
            Results of Review: SSA needed to improve controls to ensure child beneficiaries who
            attained age 18 were paid benefits that had been previously withheld pending the selection of
            a representative payee. Based on a random sample of beneficiaries, we found that SSA did
            not pay an estimated 13,464 beneficiaries approximately $31.2 million in withheld benefits.
            Generally, these errors occurred because SSA did not generate a systems alert to identify
            beneficiaries who should have been paid withheld benefits when they attained age 18 or SSA
            employees did not take corrective actions to pay withheld benefits when processing student
            awards when a child attained age 18.
            Recommendation: SSA should identify and take corrective action on the population of child
            beneficiaries over age 18 whose benefits were withheld pending the selection of a representative
            payee.
            Agency Response: SSA agreed with the recommendation.
            Valued at: $31,052,839 in questioned costs.
            Corrective Action: The volume of cases is over 13,000. SSA is determining the best method
            and most efficient method for handling these cases. SSA does not have an updated timeframe
            for completion.
            RETROACTIVE TITLE II PAYMENTS TO RELEASED PRISONERS (A-06-08-38081,
            7/14/2010)
            Results of Review: SSA issued improper or questionable retroactive payments to beneficiaries
            after their release from prison. About half the retroactive payment transactions of $10,000 or
            more we reviewed were either improper or issued without any explanation or justification being
            documented. SSA did not establish sufficient controls to ensure large retroactive payments
            to released prisoners were valid. Specifically, SSA payment systems allowed SSA personnel to
            compute and issue large retroactive payments without explanation or justification and without
            supervisory review. The lack of sufficient controls over these payments increased the potential
            for fraud, waste, or abuse.
            Based on our sample results, we estimate that SSA issued approximately $10.3 million in
            retroactive payments to prisoners that were either incorrect or could not be explained based
            on available documentation.
            Recommendation: SSA should establish controls to ensure employees explain and justify large
            retroactive payments issued to released prisoners.




April 1, 2011 - September 30, 2011                                                                                  63
Semiannual Report to Congress




           Agency Response: SSA agreed with the recommendation.
           Valued at: $6,468,914 in questioned costs.
           Corrective Action: SSA’s implementation of Recommendation 2 is tied to the implementation of
           Recommendation 3. Enhancements to the Prisoner Update Processing System (PUPS) screens
           are needed to force the user to document PUPS Remarks with the rationale for reinstating
           benefits when the reinstatement effective date is equal to or earlier than the confinement date
           or conviction date.
           MANUAL COMPUTATIONS OF SUPPLEMENTAL SECURITY INCOME PAYMENTS
           (A-07-09-19060, 6/25/2010)
           Results of Review: Our review found that manual computations were not always accurate or
           updated when necessary. Specifically, because of inaccurate calculations, we project that 14,393
           recipients in our population were overpaid approximately $7.7 million, and 18,453 recipients
           were underpaid approximately $6.7 million. In addition, we project that 2,952 recipients in
           our population were overpaid approximately $968,000, and 3,691 recipients were underpaid
           approximately $608,000 because they did not have a new manually computed SSI payment
           amount when a subsequent event occurred.
           Our review also found that manual computations were not always reviewed by a second employee,
           as required by SSA policies and procedures. In addition, we found that some manual computations
           that were reviewed by a second employee were still inaccurate.
           Recommendation: SSA should take corrective action to properly resolve all SSI payment errors
           for recipients in OIG’s sample.
           Agency Response: SSA agreed with the recommendation.
           Valued at: $16,031,299 in questioned costs and $8,015,650 in funds put to better use.
           Corrective Action: SSA will review the cases by December 2011 and correct payment errors
           where appropriate.
           SUPPLEMENTAL SECURITY INCOME RECIPIENTS ELIGIBLE FOR VETERANS
           BENEFITS (A-01-09-19031, 1/6/2010)
           Results of Review: We found that some Supplemental Security Income (SSI) recipients appeared
           potentially eligible for Department of Veterans Affairs (VA) benefits instead of SSI payments.
           Based on our review, we estimate SSA paid about $1.3 billion to approximately 22,000 SSI
           recipients who appeared to meet the VA requirements for benefits. In addition, we estimate
           that SSA will continue to pay about $126 million in SSI payments over the next 12 months to
           individuals who appeared eligible for VA benefits instead of SSI payments.
           For example, in one case, a disabled SSI recipient had military earnings during the Vietnam
           era. This recipient served in the Army from October 1968 to July 1970 for approximately
           640 days—with at least 1 day during wartime—and received an honorable discharge from the
           military. Therefore, he appeared to meet VA’s requirements for benefits and received about




64                                                                                   April 1, 2011 - September 30, 2011
                                                                                             Semiannual Report to Congress




           $104,000 in SSI payments from January 1993 to June 2009. According to SSA’s systems, there
           was no indication this individual had applied for VA benefits.
           VA benefits are generally of greater monetary value than SSI payments—so it is usually more
           advantageous for the individuals to receive VA benefits. Specifically, in FY 2007, the average
           monthly VA benefit was $709, whereas the average monthly SSI payment was $468. Therefore,
           if these individuals are, in fact, eligible for VA benefits, they could receive higher monthly benefit
           payments.
           Recommendation: SSA should continue the efforts to work with the VA to ensure individuals
           who should be receiving VA benefits instead of SSI payments are, in fact, receiving VA benefits.
           Agency Response: SSA agreed with the recommendation.
           Valued at: $1,282,736,960 in questioned costs and $125,579,060 in funds put to better use.
           Corrective Action: SSA will continue to work with the VA to identify SSI recipients who may be
           eligible for VA benefits. In addition, SSA will ensure that those SSI recipients who are eligible
           for VA benefits take the necessary actions to apply and receive VA benefits.
           SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO CONCURRENT
           BENEFICIARIES RESULTING FROM INCORRECT BENEFIT CALCULATIONS (A-06-
           09-29103, 9/24/2009)
           Results of Review: In March 2009, we identified 338 concurrent beneficiaries from 1 of 20
           payment record segments, who received excessive SSI payments because SSA erroneously offset
           their SSI payment using OASDI benefit amounts that were not adjusted to reflect recent benefit
           payment increases. SSA overpaid these beneficiaries $18,604 per month in Federal SSI payments
           and another $2,557 per month in State supplemental benefits as a result of these errors. Most
           of these errors involved instances where SSA was collecting OASDI overpayments from the
           beneficiaries. A specific systems input associated with these payments unintentionally froze the
           OASDI benefit amounts used in the SSI unearned income offset computations. Based on our
           audit results, we estimate SSA issued overpayments to approximately 6,800 concurrently entitled
           beneficiaries because SSA erroneously offset their SSI payments using OASDI benefit amounts
           that were not adjusted to reflect recent benefit payment increases. If these errors are not corrected,
           we estimate that SSA will issue approximately $5.1 million in excessive SSI payments to these
           beneficiaries over the next 12 months.
           Recommendation: SSA should review the 7,214 cases provided and take appropriate action to
           correct the errors and prevent future errors.
           Valued at: $5,078,640 in funds put to better use.
           Agency Response: SSA agreed with the recommendation.
           Corrective Action: SSA received a work year for the resources needed to complete these cases.
           Corrective action has not been completed on these cases.




April 1, 2011 - September 30, 2011                                                                                     65
Semiannual Report to Congress




           FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
           SUSPENDING COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS (A-04-
           09-19039, 9/2/2009)
           Results of Review: We found that SSA took action on three of the recommendations in our
           prior report. However, funding limitations delayed development of an automated system
           that would address the two remaining recommendations. SSA’s corrective actions resulted in
           some improvements in the error rates we previously reported. However, we still found similar
           conditions identified in the prior report.
           We also found that SSA did not always: (1) document the justification for the decisions to
           suspend overpayment collection efforts and (2) obtain the required management approval
           before suspending an overpayment. On occasion, SSA personnel suspended collection efforts
           when debtors or the debtors’ representative payees had reported earnings that may have enabled
           some repayment. Also, SSA personnel suspended collections of some debts and classified
           the debtors as unable to locate or out of the country even though we did not find evidence
           that SSA attempted to contact the debtors or the debtors’ representative payees through their
           current employer. Overall, we estimated for 6,500 cases, totaling $52.2 million, SSA personnel
           did not follow policies and procedures when they suspended overpayment collection efforts.
           Recommendation: SSA should consider revising the May 2009 policy to require the 2-PIN
           process (management approval) for suspension decisions controlled by the Recovery and
           Collection of Overpayment Process.
           Valued at: $22,639,420 in funds put to better use.
           Agency Response: SSA agreed with the recommendation.
           Corrective Action: SSA discussed the feasibility of a 2-pin process for suspension decisions
           controlled by the Recovery and Collection of Overpayments System with the Agency’s Office
           of Systems. Through those discussions, SSA determined that the 2-pin process is feasible
           but due to Office of Systems resources, the Agency is not sure when this process can be
           implemented but will continue to follow up with the Office of Systems.
           FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS
           REPORTED ON THE MASTER EARNINGS FILE (A-01-08-28075, 4/15/2009)
           Results of Review: Our audit found that the Agency made efforts to reduce overpayments
           resulting from work activity. However, we found that SSA did not evaluate all earnings, and
           ,as a result, overpayments resulted from work activity.
           Based on our review, we estimate that approximately $3.1 billion was overpaid to about
           173,000 disabled beneficiaries because of work activity. Although SSA identified
           about 58 percent of these overpayments, we estimate the remaining 42 percent—
           approximately $1.3 billion—went undetected by the Agency to about 49,000 disabled
           beneficiaries. In addition, we estimate SSA will continue to incorrectly pay about
           $382 million over the next 12 months to individuals who are no longer entitled to disability
           benefits if action is not taken by the Agency.




66                                                                                  April 1, 2011 - September 30, 2011
                                                                                           Semiannual Report to Congress




           SSA performed 170,664 work-related CDRs in 2008 at a unit cost of $397.45. Based on
           our review, we estimate about $3.1 billion was overpaid to approximately 173,000 disabled
           beneficiaries (out of 518,080 in the estimated universe) because of work activity. To perform
           work-related CDRs for all 518,080 disabled beneficiaries, would cost SSA about $206 million
           (assuming the $397.45 unit cost remains the same). This results in a potential benefit-cost ratio
           of $15.0 to $1.0.
           We recognize SSA’s efforts to improve the work-related CDR process. In addition, we acknowledge
           the Agency’s limited resources with which to perform this workload. However, we believe SSA
           may achieve greater savings in the long-term if the Agency could provide the resources to
           perform work-related CDRs for all disabled beneficiaries with substantial earnings reported on
           the Master Earnings File.
           Recommendation: SSA should develop and implement a plan to allocate more resources to timely
           perform work-related continuing disability reviews and assess overpayments resulting from work
           activity for cases identified by the Agency’s earnings enforcement process.
           Valued at: $1,335,815,580 in questioned costs and $381,563,100 in funds put to better use.
           Agency Response: SSA agreed with the recommendation.
           Corrective Action: SSA convened a workgroup in January 2010. Improvements were made as
           follows:
           Management Information (MI)
               • Thousands of extraneous items were deleted from the work CDR MI data source
               • SSA established an Agency report to track work CDRs—currently being validated Strike
                 Plan
               • Strike teams were formed to streamline work CDR processing and reduce the pending
                aged cases
               • Quarterly reports are made to track progress
           Overpayments
               • An overpayment report was developed and is now being validated
               • Enforcement cases are now prioritized and processed by highest earnings
           IMPROPER PAYMENTS RESULTING FROM THE ANNUAL EARNINGS TEST (A-09-
           07-17066, 8/31/2007)
           Results of Review: Our audit disclosed that SSA did not adjust the benefit payments for all
           beneficiaries who were subject to Annual Earnings Test. Based on a random sample of 250
           beneficiaries for Calendar Years 2002 through 2004, we found SSA overpaid $393,117 to 112
           beneficiaries and underpaid $44,264 to 16 beneficiaries. As a result, we estimate SSA overpaid
           about $313 million to 89,300 beneficiaries and underpaid about $35 million to 12,800 beneficiaries.




April 1, 2011 - September 30, 2011                                                                                   67
Semiannual Report to Congress




          These payment errors primarily occurred because SSA did not process all records identified by
          its Earnings Enforcement Operation.
          Recommendation: SSA should review and process, as appropriate, all Earnings Enforcement
          Operation selections pending in the Office of Quality Performance since 1996.
          Valued at: $348,680,140 in questioned costs.
          Agency Response: SSA agreed with the recommendation.
          Corrective Action: SSA processed all selections from 2004 and is committed to addressing
          all selections from 2005 timely. All selections made prior to 2004 require manual review and
          processing by Operations staff. SSA thoroughly analyzed and evaluated the issues involved and
          determined that there is no possibility that these selections can be addressed via an automated
          solution. Additionally, Operations indicated that current resources could not be redirected from
          ongoing claims processing workloads to process these selections.


          Significant Monetary R ecommendations From Prior
          Semiannual R eport to Congress for Which R ecent
          Corrective Actions Have Been M ade
          FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
          SUSPENDING COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS (A-04-09-
          19039, 9/2/2009)
          Recommendation: SSA should continue to urge staff compliance with existing policy when
          suspending Title XVI overpayments and hold accountable those employees who do not follow
          established criteria.
          Valued at: $29,642,820 in funds put to better use.
          Corrective Action: Online training is available through the Office of Learning Intranet site for
          Title XVI overpayments. There is a specific section in the training that emphasizes when to
          suspend overpayment procedures.
          FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S PRISONER INCENTIVE
          PAYMENT PROGRAM (A-01-09-19029, 8/20/2009)
          Recommendation: SSA should implement a system to pay incentive payments according to the
          Act to facilitate reporting inmate information.
          Valued at: $30,281,018 in questioned costs.
          Corrective Action: The Agency agreed there is a discrepancy between the incentive payment
          provisions in the statute and the procedures SSA follows to issue incentive payments.
           In June 2004, SSA developed a technical amendment to bring the language in the Act in line with
          its incentive payment policy. However, the Act has not yet been changed.




68                                                                                  April 1, 2011 - September 30, 2011
                                                                                          Semiannual Report to Congress




           SUPPLEMENTAL SECURITY INCOME REDETERMINATIONS (A-07-09-29146,
           7/14/2009)
           Recommendation: SSA should establish a methodology to identify the number of redeterminations
           that are needed each year. To the extent the annual number of necessary redeterminations is
           not completed, identify the lost savings and document the reasons the number of needed
           redeterminations was not completed.
           Valued at: $3,255,531,018 in funds put to better use.
           Corrective Action: SSA has conducted a statistical analysis of the impact of completing a
           redetermination of SSI eligibility with detecting overpayments in the SSI program. This analysis
           found that there would be a positive return on investment for performing redeterminations on
           virtually the entire SSI recipient population.
           The methodology used to determine which SSI recipients to perform a redetermination on each
           year is based on a predictive model. This predictive model selects the most cost-effective cases to
           undergo an SSI redetermination. The model, which is continually monitored and re-estimated,
           has been in place for many years at SSA and has proven to be highly accurate and reliable in
           identifying likely overpayments. SSA stated that although its analysis found that completing
           redeterminations on nearly all segments of the SSI recipient population would be cost effective,
           the Agency’s modeling methodology finds that there is a diminishing rate of return as additional
           redeterminations are performed.
           There are no statutory requirements to complete redeterminations on a given number or
           percentage of SSI recipients each year. SSA determines the annual number of redeterminations
           to complete from the perspective of balanced utilization of its monetary and staffing resources.
           Each year, SSA assures resources are targeted to efficiently complete our various program integrity
           workloads while also meeting all the Agency’s service delivery commitments to the public.
           PAYMENTS TO INDIVIDUALS WHOSE NUMIDENT RECORD CONTAINS A
           DEATH ENTRY (A-06-08-18095, 6/26/2009)
           Recommendation: SSA should terminate benefits, recover improper payments, and refer potential
           instances of fraud to the Office of Investigations for all beneficiaries determined to be deceased
           during living status verifications.
           Valued at: $40,258,680 in questioned costs and $6,936,540 in funds put to better use.
           Corrective Action: SSA terminated benefits where appropriate and established proper controls
           to recover all improper payments. Where appropriate, SSA referred potential instances of fraud
           to OIG‘s Office of Investigation.
           CONTROLS OVER MISCELLANEOUS PAYMENTS MADE THROUGH THE SINGLE
           PAYMENT SYSTEM (A-09-07-17119, 10/25/2007)
           Recommendation: SSA should establish an appropriate control to ensure the Form
           SSA-1724 or other written application for a death underpayment is retained.
           Valued at: $98,280,016 in questioned costs.




April 1, 2011 - September 30, 2011                                                                                  69
Semiannual Report to Congress




             Corrective Action: SSA’s current policy requires all incoming documents to be electronically
             entered into the paperless system. Therefore, underpayment applications including Form
             SSA-1724 are retained.




70                                                                                   April 1, 2011 - September 30, 2011
                                                                                          Semiannual Report to Congress




           APPENDIX G: Significant Non-Monetary
           R ecommendations From Prior FYs for Which Corrective
           Actions Have Not Been Completed
           DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED BY
           DISABILITY DETERMINATION SERVICES AND SUBSEQUENTLY ALLOWED BY
           ADMINISTRATIVE LAW JUDGES (A-07-09-19083, 8/20/2010)
           Results of Review: We identified the four impairments that were most often denied by DDSs
           in Calendar Years 2004 through 2006, appealed to the hearing level, and subsequently allowed.
           These impairments were Disorders of Back; Osteoarthrosis and Allied Disorders; Diabetes
           Mellitus; and Disorders of Muscle, Ligament, and Fascia. Our analysis of cases with these four
           impairments disclosed:
                • Claimant age impacted disability determinations.
                 • Determinations of claimants’ ability to work resulted in differences at the DDS and
                  hearing levels.
                 • Claimant representation was more prevalent in cases allowed at the hearing level
                 than in cases decided at the DDS level.
                 • Cases were allowed at the hearing level based on a different impairment than that
                 on which the DDS made its determination.
                 • States had both DDS denial rates and hearing level allowance rates above the
                 national averages.
                 • ODAR regions, hearing offices, and ALJs had wide variations in allowance rates.
           Recommendation: SSA should consider conducting a targeted review of disability determinations
           made in the six States we identified as having higher than average disability DDS denial rates and
           hearing level allowance rates for the four impairments we analyzed.
           Agency Response: SSA agreed with the recommendation
           Corrective Action: SSA’s Office of Quality Performance continues its review with an expected
           completion date by the end of the year.
           Recommendation: SSA should consider analyzing variances between the hearing offices and
           administrative law judges with high and low allowance rates for the four impairments we analyzed
           to determine whether factors are present that support the variances
           Agency Response: SSA agreed with the recommendation
           Corrective Action: The Office of Appellate Operations continues its quality review of unappealed
           fully and partially favorable hearing office decisions. This review began on September 27, 2010.




April 1, 2011 - September 30, 2011                                                                                  71
Semiannual Report to Congress




           SSA plans on having enough data on which to issue a report early next fiscal year (based on
           this year’s data).
           FOLLOW-UP OF PENDING WORKERS’ COMPENSATION (A-08-09-19167, 7/12/2010)
           Results of Review: SSA had not taken corrective actions to address recommendations in our September
           2005 report. Specifically, SSA had not (1) followed through with steps to reduce its backlog of Title II
           disability cases having pending Workers’ Compensation (WC) claims; (2) developed and implemented
           an automated process to ensure it systematically and routinely follows up on new pending WC cases; or
           (3) explored systems enhancements that would detect situations in which WC is not applicable
           to prevent personnel from retrieving and analyzing cases that no longer require development.
           As a result, the volume of cases with WC claims pending for 2 or more years increased from
           227,615 in January 2005 to 268,825 in November 2009, an 18-percent increase over the past 4
           years. In addition, we estimated SSA had overpaid Title II beneficiaries between $44 and $58
           million because of unreported WC payments since our June 2003 report.
           Recommendation: SSA should explore systems enhancements that would detect situations in
           which WC is not applicable to prevent personnel from retrieving and analyzing cases that no
           longer require development.
           Agency Response: SSA agreed with the recommendation.
           Corrective Action: SSA worked to establish an agreement with a private organization that
           supports insurance companies with information on WC. The Agency entered into negotiations
           with the company to develop a proof of concept test project, worked out the agreement, and
           set up a test run of data. However, just prior to the test run, the company backed out. Other
           avenues were explored, but businesses are reluctant to outlay resources without some return, and
           SSA has not been in a position to offer enticing quid pro quo opportunities. SSA also pursued
           changes to the law that would require organizations to provide this information to SSA, but
           nothing has been passed.
           Given these circumstances, SSA cannot accommodate this recommendation. Without access to
           State and private WC data, SSA has no way of detecting situations where WC is not applicable.
           Because of this, SSA has no way of preventing personnel from retrieving and analyzing cases
           that no longer require development. (Flowers-56016)
           REPRESENTATIVE PAYEES REPORTING CRIMINAL CONVICTIONS (A-13-09-19145,
           6/17/2010)
           Results of Review: Some individuals did not accurately report their criminal history to SSA
           when completing representative payee applications. Our review of information in the Prisoner
           Update Processing System (PUPS) found 92 individual representative payees—76 relatives and
           16 non-relatives—were incarcerated for longer than 1 year even though they did not disclose this
           information on their applications to serve as payees. In addition, a comparison of information
           in PUPS with data in LexisNexis for 300 sampled representative payees found 28 payees who
           were incarcerated for longer than 1 year. Based on our sample results, we estimate about 900
           payees were incarcerated for longer than 1 year and did not inform SSA of their criminal histories.




72                                                                                         April 1, 2011 - September 30, 2011
                                                                                           Semiannual Report to Congress




           Recommendation: Determine and implement a cost-effective method to use PUPS incarceration
           data and/or third-party database information to assess individuals applying to serve as
           representative payees and use this information to determine the suitability of the payee applicants.
            Agency Response: SSA agreed with the recommendation.
           Corrective Action: SSA will pursue enhancements to its PUPS/Representative Payee System
           data match to improve screening of current representative payees and new applicants. The
           Agency noted, however, that any actions taken in this area will require SSA to modify existing
           systems’ processes. SSA determined that it cannot implement this change in FY 2011, given
           the Agency’s limited IT resources. SSA will consider evaluating how the Agency can implement
           the modification as SSA considers which IT investments will provide the greatest return to the
           Agency, the public, and its stakeholders.



           Significant Non-Monetary R ecommendations From
           Prior Semiannual R eport to Congress for Which R ecent
           Corrective Action Has Been M ade
           SOCIAL SECURITY NUMBER MISUSE FOR WORK AND THE IMPACT ON THE
           SOCIAL SECURITY ADMINISTRATION’S MASTER EARNINGS FILE (A-03-07-27152,
           9/29/2008)
           Recommendation: SSA should consider the development of a cost-effective method to
           automatically post subsequent wage items that have the same characteristics of previously
           disclaimed wage items to the Earnings Suspense File.
           Corrective Action: Corrective software was released in the production environment December
           2010.




April 1, 2011 - September 30, 2011                                                                                   73
Semiannual Report to Congress




         APPENDIX H: Office of the Inspector General
         Peer R eviews

         Office of Investigations
         • Our Office of Investigations is required to undergo a peer review every three years to ensure general
         and qualitative standards comply with the requirements of the Quality Standards for Investigations
         adopted by the CIGIE. The peer review also ascertains whether adequate internal safeguards and
         management procedures exist to ensure that the law enforcement powers conferred by the 2002
         amendments to the Inspector General Act are properly exercised pursuant to Section 6(e) of the
         Inspector General Act (as amended) and the United States Attorney General Guidelines for Offices
         of Inspector General with Statutory Law Enforcement Authority.
         • In November 2010, the U.S Postal Service Office of Inspector General (USPS/OIG) notified us
         that our Office of Investigations passed the peer review. In the opinion of the USPS/OIG, the
         system of internal safeguards and management procedures for the investigative function of SSA/
         OIG in effect for the year ending June 30, 2010, complied with the quality standards established
         by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) and the Attorney
         General Guidelines for Offices of Inspector General with Statutory Law Enforcement Authority.
         • OQPAR, on behalf of OI, initiated a peer review of the Treasury Inspector General for Tax
         Administration in September 2011, which is ongoing.
         • There are no outstanding recommendations from prior investigative peer reviews completed by
         us or from prior reviews of our organization.


         Office of Audit
         • Our Office of Audit is required to undergo a peer review every three years, in accordance with
         generally accepted government auditing standards. A copy of the System Review Report can be
         obtained from our website at http://www.ssa.gov/oig/ADOBEPDF/externalreview.pdf.
         • The final System Review Report related to our last peer review, conducted by the Department
         of Justice OIG, was issued in November 2009. We received a rating of pass, which means that the
         review team concluded that the system of quality control for the audit organization had been suitably
         designed and complied with to provide us with reasonable assurance of performing and reporting
         in conformity with applicable professional standards in all material respects. The Department of
         Justice OIG identified no deficiencies that affected the nature of the report. Further, there were no
         findings or recommendations as a result of this peer review.
         • During FY 2010, we conducted a peer review of the Department of Energy OIG, Office of Audit
         Services. We issued our report on March 5, 2010 and made no recommendations as a result of this
         peer review.
         • There are no outstanding recommendations from prior audit peer reviews completed by us or from
         prior reviews of our organization.


74                                                                                     April 1, 2011 - September 30, 2011
                                                                                    Semiannual Report to Congress




    Glossary of Acronyms
     ALJ              Administrative Law Judge
     APP              Advanced Procurement Plan
     CDI              Cooperative Disability Investigative
     CDR              Continuing Disability Review
     CMP              Civil Monetary Penalty
     DACUS            Death Alert Control and Update System
     DDS              Disability Determination Services
     DHS              Department of Homeland Security
     DOJ              Department of Justice
     FPS              Federal Protective Service
     FY               Fiscal Year
     GPRA             Government Performance and Results Act
     GSA              General Services Administration
     IO               Immediate Office
     IRS              Internal Revenue Service
     IT               Information Technology
     MPH              Miles Per Hour
     OA               Office of Audit
     OASDI            Old-Age, Survivors, and Disability Insurance
     OCIG             Office of the Counsel to the Inspector General
     ODAR             Office of Disability Adjudication and Review
     OER              Office of External Relations
     OI               Office of Investigations
     OIG              Office of the Inspector General
     OPM              Office of Personnel Management
     OQAPR            Office of Quality Assurance and Professional Responsibility
     OTR              on-the-record
     OTRM             Office of Technology and Resource Management
     PAR              Performance and Accountability Report
     PI               Performance Indicators


                                                                                               Glossary •

April 1, 2011 - September 30, 2011                                                                            75
Semiannual Report to Congress




                       Glossary of Acronyms (Continued)
             PII                Personally Identifiable Information
             POR                Program of Requirements
             PUPS               Prisoner Update Processing System
             Recovery Act American Recovery and Reinvestment Act of 2009
             RVP                Representative Video Project
             SAA                Senior Attorney Adjudicator
             SSA                Social Security Administration
             SSI                Supplemental Security Income
             SSN                Social Security Number
             Stansberry         Stansberry & Associates Investment Research, LLC
             the Act            Social Security Act
             USPIS              United States Postal Inspection Service
             VTC                Video Teleconferencing
             WIPA               Work Incentive Planning and Assistance Project




       • Glossary


76                                                                                 April 1, 2011 - September 30, 2011
